<html>
<title> - UNDERSTANDING THE ROLE OF SANCTIONS UNDER THE IRAN DEAL</title>
<body><pre>[Senate Hearing 114-417]
[From the U.S. Government Publishing Office]












                                                       S. Hrg. 114-417


        UNDERSTANDING THE ROLE OF SANCTIONS UNDER THE IRAN DEAL

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE NATURE OF THE SANCTIONS RELIEF THAT IS BEING PROVIDED TO 
   IRAN, INCLUDING THE RECENT FOCUS ON THE POTENTIAL FOR GIVING IRAN 
   ADDITIONAL ACCESS TO THE U.S. FINANCIAL MARKET IN RETURN FOR ITS 
 PREVIOUSLY NEGOTIATED TEMPORARY NUCLEAR-RELATED COMMITMENTS SET FORTH 
             IN THE ``JOINT COMPREHENSIVE PLAN OF ACTION''

                               __________

                              MAY 24, 2016

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                 Available at: http: //www.fdsys.gov /



                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-429 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  RICHARD C. SHELBY, Alabama, Chairman

MIKE CRAPO, Idaho                    SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
DAVID VITTER, Louisiana              CHARLES E. SCHUMER, New York
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
MARK KIRK, Illinois                  JON TESTER, Montana
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            JEFF MERKLEY, Oregon
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
JERRY MORAN, Kansas

           William D. Duhnke III, Staff Director and Counsel
                 Mark Powden, Democratic Staff Director
                    Dana Wade, Deputy Staff Director
                    Jelena McWilliams, Chief Counsel
    John O'Hara, Senior Counsel for International Terrorist Finance
            Laura Swanson, Democratic Deputy Staff Director
                Graham Steele, Democratic Chief Counsel
               Colin McGinnis, Democratic Policy Director
                       Dawn Ratliff, Chief Clerk
                      Troy Cornell, Hearing Clerk
                      Shelvin Simmons, IT Director
                          Jim Crowell, Editor

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  

                            C O N T E N T S

                              ----------                              

                         TUESDAY, MAY 24, 2016

                                                                   Page

Opening statement of Chairman Shelby.............................     1

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     2

                               WITNESSES

Juan C. Zarate, Chairman and Cofounder, Financial Integrity 
  Network........................................................     4
    Prepared statement...........................................    31
Mark Dubowitz, Executive Director, Foundation for Defense of 
  Democracies' Center on Sanctions and Illicit Finance...........     7
    Prepared statement...........................................    46
Michael Elleman, Consulting Senior Fellow for Regional Security 
  Cooperation, International Institute for Strategic Studies--
  Americas.......................................................     8
    Prepared statement...........................................    72
Elizabeth Rosenberg, Senior Fellow and Director, Energy, 
  Economics, and Security Program, Center for a New American 
  Security.......................................................    10
    Prepared statement...........................................    78
    Responses to written questions of:
        Senator Heitkamp.........................................    84

                                 (iii)
 
        UNDERSTANDING THE ROLE OF SANCTIONS UNDER THE IRAN DEAL

                              ----------                              


                         TUESDAY, MAY 24, 2016

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:30 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Richard C. Shelby, Chairman of the 
Committee, presiding.

        OPENING STATEMENT OF CHAIRMAN RICHARD C. SHELBY

    Chairman Shelby. The hearing will come to order.
    Today the Committee will receive testimony on the 
repercussions of lifting economic sanctions from the world's 
leading State sponsor of terrorism--Iran.
    In particular, it is important for this Committee to 
understand the effects of implementing the Joint Comprehensive 
Plan of Action, or more simply, the ``Iran deal''. Time and 
again, Iran's actions have demonstrated that this deal has 
placed the U.S. in a position of weakness and given Iran the 
upper hand.
    As U.S. and global sanctions evaporate, Iran continues, and 
in some cases appears to expand, its dangerous behavior. It 
continues to express its commitment to the destruction of 
Israel. It continues to operate its aggressive ballistic 
missile programs, including testing these missiles five times 
since the Iran deal's implementation date.
    Yes, it continues to conduct illicit financing, sending 
hundreds of millions of dollars to groups like Hezbollah. It 
continues to promote severe and widespread human rights abuses, 
including record numbers of executions and oppressive 
restrictions on civil liberties.
    We are now more than 4 months into the implementation of 
the Iran deal in which Iran promised to refrain from building a 
nuclear weapon in exchange for significant sanctions relief.
    There is already a growing belief that this Administration 
has little interest in preserving the tools it would need to 
reimpose sanctions, should Iran violate the terms of the deal.
    And while the world relies on the promises of a rogue 
Nation, Iran has begun to see immediate benefits from the 
agreement, despite its claim that they are not accruing fast 
enough.
    For example, the deal gave Iran prompt access to 
approximately $100 billion in previously frozen overseas 
assets. The deal also suspended virtually all European Union 
and United Nations sanctions imposed since 2010, including 
those on Iran's valuable energy sector.
    In addition, it lifted most U.S. secondary sanctions on 
foreign entities and countries that transact business with 
Iran, including in the energy and banking sectors.
    Still, the Obama administration continues to actively 
engage in further opening Iran's economy to the world. In March 
of this year, Treasury Secretary Lew said that the 
Administration would continue to seek ways to ``make sure Iran 
gets relief.''
    In particular, the Administration has indicated its 
willingness to create avenues for a legitimate dollar trade 
with Iran, notwithstanding assurances that no Iranian 
transactions will touch the U.S. financial system in any way.
    Undoubtedly, access to the world's strongest and most 
liquid currency would allow the Iranian economy to flourish in 
comparison to current levels. But with such new-found wealth, 
there would be no restrictions on how Iran would spend their 
windfall.
    Many fear that there is absolutely no way to restrain a 
growing Iranian economy from funding Hezbollah, the Islamic 
Revolutionary Guard, Iran's missile program, and other 
priorities of Iran's Supreme Leader.
    It is no surprise that, despite the misguided efforts of 
the Administration to put the global banking system at ease, 
financial institutions are reluctant to do business with Iran, 
as well they should be. Not only are international banking 
sanctions extremely--and purposefully--complicated to unwind, 
but the reputational risk that Iran poses remains significant.
    Issues like these illustrate how the Iran deal was sealed 
before it was clear on how it would be implemented and, thus, 
whether or not it would work.
    And while Iran has not changed any of its non-nuclear 
reckless behavior, it has become apparent that the 
Administration will bend over backwards to try to make the 
agreement even more attractive to Iran. During last year's 
negotiations, the White House gave the impression to Iran and 
the world that it thought any deal was better than no deal. 
Unfortunately, it is taking extreme measures to try to make a 
bad deal work.
    I look forward to the testimony here today of our witnesses 
as the Committee evaluates the important issues before us and 
considers necessary and appropriate actions.
    Senator Brown.

               STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman. For the next 2 
days, this Committee will examine the continuing role of U.S. 
sanctions on Iran, those lifted under the terms of the Joint 
Comprehensive Plan of Action and those still in place, to 
combat Iran's ongoing malicious behavior.
    Iran is a State sponsor of terrorism. It destabilizes the 
region. It violates the human rights of its people. That is why 
the United States and our ally policymakers decided to focus on 
preventing the single greatest threat to the region and to the 
world--its nuclear program. They knew a nuclear-armed Iran 
would pose grave risks to us in our country, to Israel, and to 
the region. This original rationale is worth bearing in mind 
given the partisan rancor on this effort in the last 2 years.
    Long before the JCPOA, there had been a broad bipartisan 
consensus in the Bush administration and the Obama 
administration on using tough economic sanctions to force Iran 
to the negotiating table and to agree to steps to block its 
pursuit of a nuclear weapon. In 2008, President Bush's National 
Security Adviser, Condoleezza Rice, signed a memorandum with 
P5+1 allies stating that, in return for Iran agreeing to limit 
its nuclear program, the U.S. was ready to recognize its right 
to peaceful nuclear energy, to work with its leaders to build 
confidence to begin to normalize trade and economic relations, 
and allow for civil aviation cooperation. A number of my 
colleagues have forgotten that position taken by an 
Administration not named Obama. That served as the basis for 
future discussions in the Obama administration.
    That is why I was so disappointed--and I think most people 
in this country were so disappointed--in the partisan nature of 
the debate last year, including from colleagues who opposed the 
JCPOA even before reading it. Contrary to opponents' dire 
predictions, Iran complied with its commitments under the 2013 
Interim Agreement, and the International Atomic Energy Agency 
has verified that Iran has met its JCPOA obligations.
    Critics said our sanctions regime would unravel. They 
exaggerated the amount of sanctions relief Iran would receive. 
They claimed Iran would never shut down its centrifuges or 
disable its plutonium reactor or ship out its uranium or allow 
real-time monitoring of its nuclear sites. More recently, some 
allege that the Administration was preparing to provide Iran 
direct access to the U.S. financial system. Wrong on every 
count.
    The nuclear agreement was one of the most significant 
national security achievements in a generation. It was 
accomplished without dragging the United States into another 
war in the Middle East.
    This history underscores two points:
    First, economic sanctions are means, not ends. Whether 
applied to Iran or Russia or Burma, they are meant to bolster 
diplomacy and force concrete changes in a Nation's behavior. In 
Iran's case, economic sanctions strengthened our national 
security and that of allies like Israel by forcing Iran's 
leaders to abandon key elements of their nuclear program--think 
back to Condoleezza Rice and President Bush--by forcing Iran's 
leaders to abandon key elements of their nuclear program that 
could have led to a bomb.
    Second, whether we support it or oppose the JCPOA, we all 
understand the need to continue to combat the threat that Iran 
continues to pose to the United States or our allies. That 
requires the Administration to enforce existing sanctions, to 
designate new sanctions targets, to block Iran's pursuit of 
military technologies, and to take other steps to confront Iran 
and its terrorist proxies like Hezbollah.
    It requires Congress to confirm immediately our chief 
sanctions enforcer from whom we will hear today. Just 
parenthetically, we know that Acting Under Secretary Szubin was 
originally a Bush appointee. Now he is an Obama appointee, and 
his confirmation has been blocked. He should be in place with 
full powers and the full support of the Senate. This nomination 
has been blocked for over a year, first by this Committee, now 
by Republican leadership on the Senate floor.
    Congress must continue to provide close oversight and 
support robust military and other aid to regional partners like 
Israel. We should be focused on holding Iran's feet to the fire 
to ensure strict implementation of the agreement and to 
pressure leaders to change their own destabilizing behaviors.
    I hope my colleagues will not try to relitigate the JCPOA 
by trying to reimpose old nuclear sanctions under new labels. 
Broad new sanction legislation that contradicts our commitments 
and tries to tie the President's hand would undermine the unity 
we have developed with our P5+1 partners around the world, and 
we should remember that. That will not help confront the 
threats Iran continues to pose or help the cause of regional 
stability. It will be seen as transparently political. It will 
invite a Presidential veto.
    I welcome our witnesses. I look forward to hearing their 
perspectives.
    Chairman Shelby. Thank you, Senator Brown.
    First, we will receive testimony from the Honorable Juan 
Zarate, chairman of the Financial Integrity Network, who also 
served as the Deputy Assistant to the President and Deputy 
National Security Adviser for Combating Terrorism from 2005 to 
2009.
    Next we will hear from Mr. Mark Dubowitz, executive 
director of the Foundation for Defense of Democracies.
    Then we will hear from Mr. Michael Elleman, consulting 
senior fellow for regional security cooperation at the 
International Institute for Strategic Studies.
    Finally, we will receive testimony from Ms. Elizabeth 
Rosenberg, a senior fellow and the director of the Energy, 
Economics, and Security Program at the Center for a new 
American Security.
    Mr. Zarate, we will start with you. All of your written 
testimony will be made part of the hearing record in its 
entirety, and if you have been here before, you know you can 
sum up your remarks. Thank you.

STATEMENT OF JUAN C. ZARATE, CHAIRMAN AND COFOUNDER, FINANCIAL 
                       INTEGRITY NETWORK

    Mr. Zarate. Chairman Shelby, thank you for that kind 
introduction and the honor to be here today before you. Ranking 
Member Brown, thank you. Distinguished Members of the Senate 
Banking Committee, it is an honor to be back before you today, 
as well as to be testifying with this distinguished panel whom 
I count as friends as well as colleagues.
    Chairman, when the JCPOA was being debated, I expressed 
deep concerns about the structure, demands, and effects of the 
nuclear deal on U.S. interests, especially in anticipation of 
increased Iranian belligerence and adventurism. Predictably, we 
have seen that belligerence continue.
    Iran remains the leading State sponsor of terror and has 
continued its direct support to terrorist and militant proxies 
from the Golan to Yemen. Iran has conducted repeated ballistic 
missile tests in violation of U.N. sanctions. Iran has deployed 
troops and dispatched Shi'ite militias from around the world to 
fight for the Assad regime in Syria. Iran has continued to 
engage in human rights abuses. Iran continues to hold two 
American citizens unjustly while Robert Levinson remains 
unaccounted for.
    In January of this year, Iranian naval forces arrested 
American sailors at gunpoint, broadcasting the video of their 
detention. And, Mr. Chairman, Iran continues to develop its 
cyber capabilities and has engaged in malicious cyberattacks 
against U.S. Government sites, the private sector, specific 
individuals, and sites like the Bowman Dam in the suburbs of 
New York.
    Last year, Mr. Chairman, I explained that the JCPOA was 
fundamentally flawed, in part because it would empower and 
enrich the regime and ultimately constrain our ability to use 
the most effective financial and economic tools of isolation to 
counter dangerous Iranian behavior. Those deficits are 
revealing themselves.
    I think it is important for this Committee to consider 
three fundamental issues with respect to the important role of 
sanctions and the nuclear deal moving forward.
    First, Mr. Chairman, there is inherent tension and even 
contradictions in what the JCPOA promises. Ultimately, what we 
negotiated and promised was reintegration of Iran into the 
global economic system. Though non-nuclear sanctions were 
supposedly off the table, the agreement neuters U.S. ability to 
leverage one of its most powerful tools: its ability to exclude 
and unplug rogue Iranian actors' activities from the global 
financial and commercial system. Promising Iranian 
reintegration into the global system was not possible unless we 
were willing to defang our sanctions regime and ignore Iranian 
behavior, rehabilitate the perception of the Iranian regime 
ourselves, and take the most effective tools of financial 
isolation off the table.
    The constriction campaign that was applied over the course 
of years--and I appreciate Senator Brown's reflection on that--
was intended to use the illicit, dangerous, and illegitimate 
nature of Iranian activity as the driver for unplugging Iran 
from the global financial and commercial system. That 
underlying conduct has not changed. If anything, the risks have 
increased, especially as Iran uses the financial and commercial 
system to pursue all its goals. The Iranian system is corrupt, 
lacks transparency at all levels, and is centrally controlled 
by the regime. This explains why legitimate businesses are wary 
of reentering the Iranian market and why the Iranian leadership 
continues to complain that the United States has not satisfied 
its side of the bargain.
    Second, Mr. Chairman, and unfortunately, the United States 
is falling into the trap of rehabilitating the Iranian economy. 
Throughout this deal, the onus should remain solely on Iran to 
alleviate concerns about its activities, lack of transparency, 
and failure to meet heightened global standards of financial 
integrity in the banking and commercial worlds. Iran should not 
get a free pass. This posture should force the Iranians to turn 
inward to determine how they can meet international 
expectations instead of trying to compel the United States and 
Europe to alter their standards or dictate to the private 
sector where and with whom they should do business.
    Some recent U.S. actions have created the impression that 
the U.S. and European Governments have assumed the burden of 
reintegration of the Iranian economy into the global system. 
There have been reports that the U.S. might offer Iran the 
ability to access offshore dollar-clearing facilities, to allow 
for dollar-denominated transactions, and ease Iran's ability to 
trade internationally. The United States should not be offering 
special exemptions of measures to assist Iran with access to 
dollars while Iran remains a leading State sponsor of terror, 
subject to serious sanctions, and designated as a primary 
money-laundering concern.
    The U.S. Government has been sending delegations around the 
globe to clarify existing sanctions and obligations, and 
apparently to explain how business with Iran may be undertaken 
with the Iranian regime. The burden instead should fall on Iran 
to demonstrate that its activities, policies, and use of its 
system is legitimate, transparent, and meets international 
standards.
    The U.S. has announced that it plans to buy heavy water 
from the Iranian nuclear system. The U.S. should not usher Iran 
into the global economy, especially not in the nuclear markets.
    Finally, the U.S. Treasury officials have reiterated their 
commitment to enforcing existing sanctions vigorously and 
maintaining the ability to use these tools effectively. These 
commitments, however, are undercut when the U.S. modifies its 
message to suggest that our sanctions regime should not 
constrain or affect the risk calculus of the private sector. 
Quite to the contrary, Mr. Chairman, the U.S. should be doing 
everything possible to reinforce the power and reach of U.S. 
measures.
    Third, Mr. Chairman, we should continue to view the use of 
sanctions and the process of unwinding itself as critical and 
strategic levers to effect Iranian behavior. The U.S. should 
treat the JCPOA and its implementation as an ongoing process 
and evolution where sanctions and sanctions unwinding form a 
strategic part of U.S. and international efforts to not only 
enforce the deal but maintain economic and financial leverage 
against Iran, to push back on dangerous Iranian activity, and 
force the Iranians to make hard decisions about their role in 
the world.
    Mr. Chairman, the Iranian regime has needed access to 
capital, new technologies, and connectivity to the markets 
globally. That is what it lost over the past decade. It is what 
the negotiated to regain in the JCPOA. And it is now the source 
of Iran's most significant complaint.
    The United States must be willing to use its financial and 
economic toolkit to constrain dangerous Iranian behavior and 
encourage responsible Iranian activity. In fact, this is an 
alternative to war.
    And just briefly, Mr. Chairman, this means forcing Iran to 
deal with the demands of the international marketplace on their 
own and addressing the underlying conduct that has proven 
problematic and continuously risky.
    The United States will need to rely on sanctions and 
financial measures even more in the future, and we should be 
doing everything possible now to reinforce the strength and 
endurance of these powers--against Iran, against its proxies, 
and against other rogues in the international system.
    Thank you, Mr. Chairman.
    Chairman Shelby. Thank you.
    Mr. Dubowitz.

STATEMENT OF MARK DUBOWITZ, EXECUTIVE DIRECTOR, FOUNDATION FOR 
DEFENSE OF DEMOCRACIES' CENTER ON SANCTIONS AND ILLICIT FINANCE

    Mr. Dubowitz. Chairman Shelby, Ranking Member Brown, 
Members of the distinguished Committee, on behalf of the FDD 
and its Center on Sanctions and Illicit Finance, thank you for 
the opportunity to testify. And it is certainly an honor to be 
testifying with Juan and Michael and Liz, whose work I greatly 
admire and whose service to our Nation I am thankful for.
    Iran is engaged in a robust effort to legitimize its 
financial sector despite a decades-long rap sheet of financial 
crimes that it shows no sign of curbing. Since the conclusion 
of the JCPOA, the Obama administration has missed numerous 
opportunities to push back against this legitimization 
campaign. Instead of using non-nuclear sanctions to deter and 
punish Iran's continuing malign activities, the Administration 
runs the risk of being seen as the Islamic Republic's Trade 
Promotion Authority.
    Iran complains that it has not received the sanctions 
relief it was promised, and the White House seems to think that 
it is our responsibility to deliver. But the regulatory and 
economic realities are very different. The Administration 
honored its commitments on Implementation Day in lifting or 
suspending the entire ``nuclear-related'' sanctions 
architecture. Iran, in fact, has already received an economic 
windfall: The JCPOA (as well as the interim agreement) provided 
Iran with economic relief that helped Tehran avoid a severe 
economic crisis and even initiate a modest recovery. The 
lifting of restrictions and access to $100 billion in overseas 
assets and Iran's return to oil markets have all given Tehran 
hard currency to settle its outstanding debts, begin to repair 
its economy, build up its foreign exchange reserves, and ease a 
budgetary crisis. This has now freed up funds for financing 
terrorism.
    Meanwhile, Iran continues ballistic missile development, 
regional destabilization, and egregious human rights abuses, 
and all of these have become just as problematic or, in fact, 
have gotten worse since the agreement.
    Administration officials repeatedly pledged to you that 
they would continue to enforce non-nuclear sanctions to deter 
and punish Iran's dangerous activities. But in response, Iran 
has threatened to walk away from the deal and snap back its 
nuclear program if any meaningful sanctions are imposed for any 
reason.
    Congress should reject this nuclear blackmail and hold the 
Administration accountable for its commitments. Sanctions 
against Iran's many malign activities are not JCPOA violations, 
as Iran claims, but, rather, an affirmation of U.S. policy as 
Secretary Kerry himself as articulated to ``oppose Iran's 
destabilizing policies with every national security tool 
available.''
    But it does not appear that the Administration is going to 
stand behind its own policy. Since the nuclear deal was signed, 
only nine individuals and nine entities have been added to 
Treasury's sanctions for all of Iran's ongoing illicit 
activities. These measures include ineffectual missile 
procurement sanctions imposed in response to repeated missile 
tests, and at the United Nations, the Administration has backed 
away from using the term ``violations,'' instead arguing that 
the missile tests are inconsistent with Security Council 
Resolution 2231.
    I would note Iran is in flagrant violation of 2231, which 
is the implementation resolution of the JCPOA. So I ran is not 
in compliance unless you draw an artificial distinction between 
the deal and the U.N. Security Council resolution that 
implements the deal.
    Moreover, while the Administration has talked about human 
rights sanctions as a necessary tool to counter the regime's 
domestic oppression, that oppression has only intensified. And, 
in fact, the Administration has designated no individuals or 
entities for human rights abuses since the nuclear deal was 
reached and, in fact, only one individual and two entities 
since President Rouhani came into power in the summer of 2013. 
And now in response to Iranian pressure, as Mr. Zarate has 
said, the Administration is considering a new unilateral 
concession: direct or indirect access to dollarized financial 
transactions. This concession undercuts the effectiveness of 
our entire non-nuclear sanctions strategy which depends on the 
private sector's fear of the risks involved in transacting with 
Iran because of its illicit financial conduct. Allowing 
dollarized transactions aids Iran's push to legitimize its 
financial sector without ceasing the terrorism and missile 
financing, money laundering, and sanctions of Asian activities.
    The JCPOA gave Iran a patient pathway to nuclear weapons 
capability by placing limited, temporary, and reversible 
constraints on its nuclear activities. It turned the regime 
from a nuclear pariah into a nuclear partner, without requiring 
it to come clean on its illegal weaponization activities. The 
regime is now trying to follow the same legitimization strategy 
by trying to gain international acceptance without demonstrable 
change in its illicit conduct. Change has to go far beyond a 
mere exercise in checking the box on technical requirements 
from the Financial Action Task Force related to money 
laundering and terror financing, and it has to require 
substantive changes in behavior. As long as Iran continues to 
fund Hezbollah, Tehran should never be legitimized as a 
responsible financial actor.
    Let me conclude with this: Secretary Lew recently argued 
that sanctions are an effective instrument to address illicit 
activities, but they must be lifted when the illicit behavior 
changes. This is a very important principle, but it misses a 
crucial detail: Iran has not addressed the underlying illicit 
behavior that prompted many of the U.S. sanctions in the first 
place.
    Thank you for the opportunity to testify today. I look 
forward to your questions.
    Chairman Shelby. Thank you.
    Mr. Elleman.

  STATEMENT OF MICHAEL ELLEMAN, CONSULTING SENIOR FELLOW FOR 
  REGIONAL SECURITY COOPERATION, INTERNATIONAL INSTITUTE FOR 
                  STRATEGIC STUDIES--AMERICAS

    Mr. Elleman. Yes, thank you. Chairman Shelby, Ranking 
Member Brown, distinguished Members of the Committee, and the 
panel, I thank you for the opportunity to speak before you 
today.
    As background, I wanted to say that my statement is 
informed by over two decades working as a missile scientist at 
Lockheed Martin's research laboratories and more than 25 years 
observing and writing about ballistic missile proliferation. In 
2010, I authored a dossier by the International Institute for 
Strategic Studies on Iran's ballistic missile capabilities. I 
continue to monitor missile developments around the world.
    Ballistic missiles are central to Iran's deterrence posture 
and will remain so for the foreseeable future. This priority 
assigned to ballistic missiles is reflected by the size and the 
scope of Iran's arsenal. Given this importance, Iran is highly 
unlikely to surrender its current stockpile of systems. Even if 
Iran acquires advanced military aircraft, ballistic missiles 
will continue to play a primary role in Iran's force structure.
    Iran's missiles can reach targets throughout the region. 
When armed only with conventional warheads, the missiles have 
limited military utility because they lack the accuracy to be 
able to predictably and reliably destroy a specific target. 
They can, however, be used to disrupt operations at key air 
bases, ports, and military facilities. Missile strikes against 
major cities could sow terror, potentially weaken the political 
resolve of Iran's adversaries and our partners. Iran exploits 
this fear of missile attacks by frequently brandishing its 
capabilities, including flights tests. In so doing, it seeks to 
deter, decouple the U.S.-Gulf partnership and intimidate 
regional rivals.
    Ballistic missiles no doubt would be the preferred delivery 
platform should Iran ever acquire an atomic weapon. There is no 
formal definition of what constitutes a nuclear-capable 
missile, although the range-payload thresholds established in 
the Missile Technology Control Regime offer a broadly accepted 
classification measure. The MTCR restricts the transfer of 
missiles capable of delivering a 500-kilogram warhead to 300 
kilometers.
    Iran's Shahab, Qiam, Ghadr, Emad, and developmental Sajjil 
missiles all fit under this threshold definition. Iran 
possesses more than 300 nuclear-capable ballistic missiles.
    Flight tests are an essential element of any missile 
program. Because Iran views ballistic missiles as a critical 
instrument of statecraft, deterrence, and warfighting, it will 
continue to test missiles. Sanctions are unlikely to prevent 
them from testing.
    The pace of missile testing by Iran last year and this year 
is consistent with past practices. But Iran did not conduct any 
nuclear-capable missile launches in 2005, 2013, and 2014, when 
serious nuclear negotiations were underway. From 2006 to 2012, 
when the talks were going nowhere, Iran averaged roughly five 
tests per year. Three tests were performed last year, and five 
have occurred this year.
    I have seen no evidence to suggest that Iran is trying to 
actively develop an intermediate- or intercontinental-range 
ballistic missile. I cannot speak to a covert program. The need 
to flight test missiles before they are made operational 
provides advanced warning of any new capabilities. Flight 
trials historically require 3 to 5 years, sometimes many more.
    Available evidence, including the recent debut of the Emad 
missile in October of 2015, indicates that enhancing missile 
accuracy supersedes Iran's quest for longer-range systems.
    Iran has used large rockets, however, to launch satellites 
into space. Satellite launch activity could in principle be 
used as the springboard to developing an intercontinental-range 
missile. But no country has ever converted a satellite launcher 
into a long-range missile. Iran is highly unlikely to develop 
and deploy an operationally ready intermediate-range missile 
before the end of this decade or an ICBM before 2022.
    Iran possesses the technical, project management, and 
industrial capacity to develop and field ballistic missiles 
that it desires within reason. However, Iran is not fully self-
sufficient. It must still import key components, materials, and 
technology to support the production and development of 
missiles. These vulnerabilities can and should be exploited.
    Containing the program. Past multilateral sanctions appear 
to have slowed the development of Iran's Sajjil medium-range 
missile. The U.N. Panel of Experts on Iran sanctions played an 
important role in this success by enhancing international 
awareness and investigating violations of Resolution 1929. The 
Panel does not exist under Resolution 2231. It should.
    The success of unilateral sanctions against Iranian 
enterprises and individuals is historically ambiguous. As Iran 
enters into the international trade, unilateral sanctions may 
or may not be more effective. It is difficult to predict.
    The Proliferation Security Initiative, initiated under the 
Bush administration, is an international effort to disrupt the 
flow of WMD items, technologies, and related materials and 
could be an effective tool for intercepting shipments from 
North Korea, Iran's principal if not sole source of liquid 
propellant missile engines. Joint missile defense exercises 
with our Gulf partners--and Israel--offer a tangible counter 
narrative to Iran's missile tests and will enhance defense 
effectiveness in the long run.
    And, finally, Iran has said that it does not need missiles 
with a range exceeding 2,000 kilometers. The U.S. should 
explore options that, at a minimum, would codify legally that 
range limit. Other limitations may be ripe for negotiation, 
including those that increase the transparency of Iran's space 
program, which would limit its ability to break out and create 
an ICBM.
    Thank you. I look forward to your questions.
    Chairman Shelby. Thank you.
    Ms. Rosenberg.

 STATEMENT OF ELIZABETH ROSENBERG, SENIOR FELLOW AND DIRECTOR, 
   ENERGY, ECONOMICS, AND SECURITY PROGRAM, CENTER FOR A NEW 
                       AMERICAN SECURITY

    Ms. Rosenberg. Chairman Shelby, Ranking Member Brown, and 
distinguished Members of the Committee, thank you for the 
opportunity to testify today on the role of sanctions under the 
Iran deal.
    The Iran sanctions regime was, and remains, the most 
comprehensive program of U.S. and international sanctions 
commensurate with the grave security concerns regarding Iran's 
nuclear proliferation activities, its regional destabilization, 
ballistic missile program, support for terrorism, and abuse of 
human rights. Many U.S. and international sanctions on Iran 
were waived on Implementation Day, the milestone of the nuclear 
agreement, recognizing Iran's completion of its major initial 
nuclear commitments.
    However, the United States maintains sanctions authorities 
relevant to Iran as part of the deal as well as a wide array of 
sanctions on Iran outside the scope of the deal, and the 
existing architecture of Iran's sanctions remains very powerful 
and affords an enormous amount of leverage to pursue Iran's 
security provocations and destabilization.
    Following Implementation Day, Iran was able to expand its 
oil sales and has established new oil trading contracts in 
Europe and more deliveries to Asia. It also now has access to 
$100 billion of its formerly frozen assets, as has been 
mentioned by my fellow panelists. Additionally, the United 
States, the EU, and the U.N. together removed hundreds of 
designated Iranian entities from sanctions lists, including 
Iranian banks, that then gained access to European financial 
institutions. Some Iranian banks are reestablishing branch 
licenses and correspondent relationships in Europe and are 
renewing their ties with Asian counterparts as well. Iran's 
charm offensive to market new deals for trade and investment, 
including in areas such as automobiles and airplanes, has also 
met some success internationally.
    However, there are various reasons why Iran will expand its 
links to the international financial system only very slowly. 
The cumbersome unraveling of nuclear sanctions restrictions at 
banks and companies around the world in order to engaged in now 
permitted business with Iran is only one factor. Remaining 
sanctions on Iran for its terrorist and ballistic missile 
activities are a deterrent to those who would contemplate 
business with Iran along with prudential concerns related to a 
history of corruption and a lack of transparency and 
maneuverability for foreign firms in Iran's financial system. 
So for reasons of political and security risk, existing 
sanctions, and the serious financial challenges associated with 
attempting business in Iran, many global banks have made it 
clear that they do not plan on doing business in this 
jurisdiction.
    In pursuing Iran's sanctions now and in the future, U.S. 
policymakers must prioritize the important work of isolating 
Iranian entities engaged in dangerous and illicit behavior 
through aggressive implementation of existing sanctions 
authorities. This means continuing and expanding sanctions 
designations targeting Iran's provocative and dangerous 
ballistic missile program and its reprehensible support for 
terrorism and abuse of human rights. This is particularly 
important with regard to the work of targeting the insidious 
and dangerous activities of the IRGC within and beyond the 
borders of Iran, including exposing the financial activity and 
holdings of the IRGC, its agents and instrumentalities, and 
Iran's regional terrorist proxies whenever feasible. The U.S. 
Government should designate the IRGC under its terrorism 
authorities, and it should urge EU counterparts to deny access 
to European airports for Mahan Air, given its involvement with 
Iranian support for terrorism.
    Beyond designating more targets independently and in tandem 
with international partners, U.S. policymakers should also 
continue and expand educational outreach to highlight Iran's 
self-imposed financial problems, and this should be paired with 
a strategy to facilitate and encourage remediation of these 
problems by U.S. and foreign experts.
    With regard to sanctions relevant to oversight of the 
nuclear deal, policymakers will now want to ensure that 
sanctions authorities are primed for use so that the United 
States and international allies are able to reimpose sanctions, 
in part or in whole, if Iran violates its nuclear commitments. 
Keeping authorities up to date means reauthorizing the Iran 
Sanctions Act before it expires at the end of the year. 
Additionally, it means readying potential additional 
contingency measures, including new approaches to sanctions 
enforcement or possible new sanctions authorities if Iran fails 
to uphold its commitments under the nuclear deal and if such 
new authorities are deemed absolutely necessary.
    Thank you for the opportunity to testify today. I look 
forward to answering any questions you may have.
    Chairman Shelby. Thank you very much.
    I will start with Mr. Dubowitz. In your testimony, Mr. 
Dubowitz, you discuss in detail a campaign run by Iran to 
legitimize its financial structure. Would you elaborate on what 
Iran is trying to accomplish and why we should be concerned?
    Mr. Dubowitz. Thank you, Chairman Shelby. Iran is trying a 
legitimization strategy similar to the one that it did on the 
nuclear side, which involves basically denying, deceiving, and 
then demanding. And on the nuclear side, it denied illicit 
conduct, it deceived the international community, and it 
demanded escalating concessions.
    On the financial track, Iran is doing the same thing. They 
are denying their illicit financial conduct, they are 
continuing that conduct, and now they are demanding new 
concessions to legitimize their financial sector. And 
greenlighting the greenback or dollarizing transactions using 
our currency would be a big win for Iran. It would give them 
the legitimacy that they seek without actually changing that 
fundamental conduct.
    Chairman Shelby. Mr. Zarate, in recent months both Acting 
Under Secretary Szubin and Secretary Lew denied that Iran would 
be given access to the dollar. In fact, Mr. Szubin testified 
before this Committee right here, and I quote, that ``no 
Iranian banks can access the U.S. financial system, not even to 
execute a dollarized transaction where a split second's worth 
of business is done in a New York clearing bank.'' Those are 
his words.
    Secretary Kerry, however, is on a worldwide mission to 
clarify how large non-U.S. banks can engage with the Iranian 
financial system.
    My question: Do you believe there is a disconnect between 
Treasury and State or the White House with regard to the 
implementation of the Iran deal? And what is going on here? If 
so, and why?
    Mr. Zarate. Mr. Chairman, I think what is reflected in 
those comments that are contradictory and in tension is the 
fundamental tension in the JCPOA, which is that we intend to 
continue to use sanctions, and if that is the case--against 
underlying illicit conduct of the Iranian regime, then that 
means we are going to not only have to deny Iran access to the 
dollar and the U.S. financial system but actually proactively 
try to encourage others to unplug them from the international 
financial system. That has been the essence of the financial 
constriction campaigns post-9/11 that have been so effective. 
And that has been, frankly, Treasury's playbook.
    That does not meet neatly with the diplomatic demands that 
the Iranians are placing on the U.S., and I think the Secretary 
of State and the State Department are doing their best to 
demonstrate that the U.S. is adhering to the spirit and letter 
of the JCPOA, in part by encouraging reintegration of the 
Iranian economy. And so there is a disconnect in that regard.
    With respect to the specific dollar issue, I think the one 
question that remains is whether or not the U.S. is going to 
encourage offshore dollar clearing. There are ways of allowing 
Iran access both for reputational reasons, as Mr. Dubowitz 
mentioned, but also for transactional reasons, to have access 
to dollars offshore which would not touch the U.S.
    Chairman Shelby. In other words, go in the back door, not 
the front door?
    Mr. Zarate. The back door, with layers of opacity, which 
makes it even harder to understand the transactions, and given 
the track record of the Iranian Government to use shell 
companies, front companies, that is a dangerous proposition and 
incentive for them to do business globally.
    Chairman Shelby. Mr. Elleman, you have testified that Iran 
already has shorter-range nuclear-capable missiles in its 
arsenal, which it continues to test. Could Iran develop and 
field a long-range missile capable of delivering a nuclear 
weapon to Europe or the United States before the Iran deal 
sunsets?
    Mr. Elleman. The short answer is probably, and probably 
yes. Iran has two pathways to developing an intercontinental-
range missile or one that could strike Western Europe. They can 
use their existing systems that they have and just cluster them 
together, such as they have done with their space launch 
vehicle. Or they could pursue a more difficult, challenging, 
but fruitful path, and that is, leverage the solid propellant 
technology it is working on today. That would allow them to 
build missiles that are optimized and designed to need.
    Chairman Shelby. Thank you. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Ms. Rosenberg, I would like to ask you a series of 
questions--and I would prefer short answers, if you can--on 
JCPOA. By Implementation Day, had Iran dismantled two-thirds of 
the installed centrifuge capacity and reduced its enriched 
uranium stockpile by over 95 percent?
    Ms. Rosenberg. Yes.
    Senator Brown. Did Iran destroy the core of its heavy-water 
reactor by filling it with concrete, cutting off its path to 
producing significant amounts of weapons-grade plutonium? And 
did it ship out excess heavy water to meet its commitments to 
hold no more than necessary for research?
    Ms. Rosenberg. Yes.
    Senator Brown. Did Iran implement all the JCPOA's 
verification measures, including allowing continuous monitoring 
of its necessary facilities and subjecting its centrifuge 
production in uranium mills and mines to surveillance by 
inspectors?
    Ms. Rosenberg. Yes, as confirmed by the IAEA.
    Senator Brown. In your view, do these actions move Iran 
further away from a nuclear weapon, making Israel and the 
region safer?
    Ms. Rosenberg. Yes, and I think proliferation security 
experts around the world all consider that the case.
    Senator Brown. Finally, has there been any indication from 
IAEA that Iran has cheated on its commitments under the JCPOA?
    Ms. Rosenberg. Not to our knowledge.
    Senator Brown. OK. Thank you for that.
    Let me ask you a more detailed question. I know it is 
complicated because it is Iranian internal politics, but it 
seems that in Iran there are hardliners who have never 
reconciled with the nuclear agreement and are trying to 
sabotage it, and there are others who want more economic 
engagement with the outside world. That is the sort of 
political tension in that Nation's politics.
    You have warned that new congressional sanctions could 
threaten JCPOA implementation. As you may know, there are bills 
before this Committee that would require additional mandatory 
sanctions against Iran and in some cases would reimpose a 
version of the old sanctions that the Administration agreed to 
waive as part of JCPOA.
    How do you see such measures that some want to move through 
Congress, how do you seem them threatening JCPOA, the 
international community's agreed-upon process for dismantling 
and monitoring Iran's nuclear program?
    Ms. Rosenberg. So new sanctions, particularly if they are 
mandatory, will be broadly perceived as sanctions that 
undermine the deal. So the signatories to the deal agreed that 
they would not reimpose sanctions removed--nuclear sanctions 
removed as part of the deal. So reimposing those would 
undermine it and could potentially cause Iran to walk away from 
the deal.
    However, the problems also exist with the other parties, 
the P5+1 parties. So these are important--they include 
important security allies, international allies of the United 
States. And if they perceive that the United States has 
willfully attempted to undermine the deal in this way, it will 
undermine transatlantic political cooperation as well as 
potentially the ability for those partners to work together to 
monitor evasion of sanctions and go after it.
    Senator Brown. If these bills were to pass the Senate and 
the House and become law, what would that mean in domestic 
Iranian politics? Which side in Iran would be bolstered by 
enactment of these sanctions bills?
    Ms. Rosenberg. Well, it certainly strengthens the narrative 
of hardliners in Iran who believe that the United States was 
disingenuous in negotiating this deal and causing Iran to make 
the concessions it has on its nuclear program and that the 
intent was never to see a successful case of nuclear diplomacy 
and the deal move forward.
    Senator Brown. So the hardliners in Iran would have 
fulfilled what they predicted all along if we were to do that.
    Ms. Rosenberg. Yes, and it would strengthen the narrative 
of others outside of Iran who also believe that to be the case.
    Senator Brown. The questions I asked you, the first series 
of questions--and thank you for answering them concisely--would 
the P5+1, if I were to ask the Ambassadors and the foreign 
ministers and the experts on sanctions in their countries, 
would they have given the same answer, by and large?
    Ms. Rosenberg. Yes, and they have indicated previously that 
they would view the U.S. imposing new sanctions as unhelpful 
and a serious act of undermining the deal.
    Senator Brown. OK. Thank you. One last question. I know you 
have written about why you think existing U.S. legal authority 
for sanctions are sufficient to combat Iran's continuing 
destabilization activities outside of the nuclear arena. 
Briefly describe the full range of these legal authorities.
    Ms. Rosenberg. They are vast. There are terrorism 
authorities, proliferation authorities, which include not just 
nuclear capabilities but missile and other weapons capabilities 
as well; authorities related to Syria that would block support 
for Assad and the Syrian Government. There are authorities that 
deal with Yemen and support the Houthis there. Kingpin, 
narcotrafficking authorities; transnational organized crime; 
cyber; the gravity EO that deals with--the word escapes me at 
this moment, but human rights authorities, the sanctions evader 
EO, as well as the variety of statutes passed by this Congress 
and the previous one and before that which also deal with the 
variety of authorities the Administration can implement with 
regard to Iran.
    Senator Brown. And these sanctions are sufficient?
    Ms. Rosenberg. They cover basically the entirety of 
concerns that we would have with Iran and want to pursue, and 
they are not limiting. The IEEPA and TWEA also give additional 
authorities to the Executive to go after new instances of 
evasion or activities of threat and concern that we might want 
to target with such authorities.
    Senator Brown. Thank you.
    Thank you, Mr. Chairman.
    Chairman Shelby. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    As I am listening to the testimony here, I think there are 
short-term and there are long-term consequences to any deal 
that you make. Our country turns 250 years old in the year 
2026, less than 10 years away. And yet we are looking at a deal 
with has been put together here, which was designed to slow 
down the Iranian nuclear program.
    Mr. Elleman, as you know, under the JCPOA, Iran's U.N. 
ballistic missile restrictions will be lifted 8 years after the 
JCPOA adoption day or until the IAEA confirms the broader 
conclusion. My question is: If Iran continues testing missiles 
and satellites at its current rate, how would you assess Iran's 
ballistic missile capability at the completion of the JCPOA?
    Mr. Elleman. Well, it's difficult to predict, primarily 
because there will be decisions for Iran to make over the 
course of the next decade. Iran presently is focused on trying 
to increase the accuracy or the military utility of its 
ballistic missiles. In fact, we are seeing an evolution in 
their missile doctrine from one of just simply being able to 
punish an adversary or foe to one where they can actually deny 
an adversary military, you know, space, territory, or 
capability.
    This is going to be a long, difficult process for them. I 
do not see them achieving it within the next decade to actually 
make them accurate enough with some sense of reliability. We 
have seen no evidence, at least in the public domain, of them 
pursuing an ICBM yet. That could change tomorrow. There could 
be a covert program.
    What I can say is that if they were to attempt to develop 
longer-range systems that could threaten Western Europe or the 
United States mainland, they would have to do some testing of 
that system, and that test program would last likely in the 3- 
to 5-year time span, sometimes more.
    Senator Rounds. How much would assistance from another 
Nation State help Iran progress toward a nuclear-capable 
missile?
    Mr. Elleman. Well, in my view--and not all of my colleagues 
support this conclusion, but in my view, Iran is not capable 
yet of manufacturing on its own the liquid propellant engines 
that power almost all of their missiles. That shortfall can 
really only be filled by importing engines from Korea, North 
Korea. It is possible they could import them from Russia, but I 
do not think Russia is in any mood to sell that type of weapons 
system, at least in the open market.
    So I would say that this is one of the fundamental 
limitations that they will have, and this is why I made the 
point that the Proliferation Security Initiative could be a 
very effective tool in denying them the ability to produce 
greater numbers of missiles than they already have.
    Senator Rounds. Thank you.
    Mr. Dubowitz, the Iran deal suspended sanctions on Iran's 
economy in exchange for a reversible rollback of certain 
Iranian nuclear activities. It does not, however, preclude the 
United States from enforcing non-nuclear sanctions.
    As Iran has made abundantly clear through its repeated 
provocative actions, the nuclear deal did not address Iran's 
illicit activities, including ballistic missile development, 
support for terrorism, regional destabilization, and human 
rights abuses. What is the message Congress should be sending 
international businesses that seek to reenter the Iranian 
market?
    Mr. Dubowitz. Well, Senator, I think it is the complete 
opposite of the message that was part of the last exchange with 
Ranking Member Brown, which is that the JCPOA does not preclude 
non-nuclear sanctions, and the notion that Iran can threaten to 
snap back its nuclear programs and, therefore, deter us from 
using those non-nuclear sanctions actually contradicts the 
commitments that President Obama, Secretary Kerry, Under 
Secretary Sherman, then-Under Secretary Cohen, and Acting Under 
Secretary Szubin have made to Congress and to the American 
people, which is that they are going to use the full course of 
power of American economic and nonmilitary might to deter Iran 
from these destabilizing and dangerous activities. That is the 
message we should be sending not only the Iranians, but we 
should be sending it to the international community that Iran 
is engaged in dangerous, malign, and illicit conduct, and that 
the U.S. Government and U.S. Congress is not going to be shy 
about using all instruments, of course, of powering, including 
sanctions, to stop that activity.
    Senator Rounds. Thank you.
    My time has expired. Thank you, Mr. Chairman.
    Chairman Shelby. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. And thank you 
all for your testimony.
    Let me ask, we have had Secretary Kerry, we have had 
Assistant Secretary--I think that is his title, the number two, 
Tom Shannon, and we have had others probably most significantly 
before the Senate Foreign Relations Committee, and they have, 
in the questions that I have posed to them and others, said 
that any new sanctions that are not within the nuclear 
portfolio but continue to pursue the issues of Iranian malign 
actions, whether that be missile technology in violation of 
U.N. Security Council resolutions, whether that be its 
promotion of terrorism, whether that be the destabilization of 
the region, that those are not a breach of the P5+1. Is that 
your understanding, Mr. Zarate?
    Mr. Zarate. Yes, Senator.
    Senator Menendez. And how about you, Mr. Dubowitz?
    Mr. Dubowitz. Absolutely, Senator.
    Senator Menendez. Mr. Elleman.
    Mr. Elleman. I would agree.
    Senator Menendez. Ms. Rosenberg.
    Ms. Rosenberg. Using existing authorities to go after those 
activities you were talking about?
    Senator Menendez. Using any new sanctions to go after those 
activities outside of the nuclear portfolio. They are not a 
violation of the JCPOA. Is that correct?
    Ms. Rosenberg. I do not view them as such.
    Senator Menendez. OK. So it is a reaffirmation by the 
private panel of what the Administration itself has told us.
    Now, would it be fair to say that one of the driving 
elements of what brought Iran to the negotiating table was the 
comprehensive sanctions that the Congress led and the 
Administration enforced? Would you say that, Mr. Zarate?
    Mr. Zarate. Absolutely, Senator. In fact, President Rouhani 
said that the sanctions were moving Iran into the economic 
stone age.
    Senator Menendez. Mr. Dubowitz.
    Mr. Dubowitz. Absolutely, Senator, because of the secondary 
sanctions' impact that actually reinforces the President's 
IEEPA power.
    Senator Menendez. So if, in fact, the sanctions brought us 
to the point where the Iranians were willing to negotiate, it 
shows that it has a force in changing attitudes and actions. 
Now, I may not have agreed with the JCPOA, but putting that 
aside, I am not going to relitigate it. The question is I think 
it is pretty clear that, but for the sanctions, the Iranians 
were on a path that they would have continued without feeling 
any consequence to pursue their nuclear program far beyond what 
we would want to see, far beyond any peaceful activity, and, 
obviously, for the purposes of nuclear weapons.
    So if that is the case, then I do not understand at a time 
in which we seem to be making Iran's case for it, we seem to be 
working toward helping them--I mean, if I could strike a deal 
with somebody and have them, my other counterpart, implement 
all the elements that I need for my deal, whether it is buying 
heavy water or whether it is making sure that I get access to 
the international financial markets, boy, I wish I could make a 
deal like that anytime where my counterpart actually is doing 
everything necessary to make the deal possible. But if I am 
going to do that, I should have an expectation that other 
things that we are concerned about that Iran is going to change 
its behavior, and it has not. It flouts international will, 
forget about U.S. will, in terms of its missile firings, 
including a missile that says, ``Death to Israel''. It is out 
there pursuing one of the worst humanitarian disasters we have 
in Syria because of its interests in having Hezbollah be a 
strong entity as its surrogate, so it does not care how many 
Syrians die until it can get a regime, whether it be Assad or 
anyone else, who guarantees that. And it continues to 
destabilize the entire region, and it continues to export 
terrorism.
    So is there anything then that we should not be pursuing--
in my view, that we should be pursuing a new set of sanctions 
outside of the nuclear portfolio, having nothing to do with the 
JCPOA, to try to get Iran to change its positions on these 
critical elements that is in the national interests and 
security of the United States? Is that a fair statement, Mr. 
Zarate?
    Mr. Zarate. It is a fair statement, Senator, and I would 
also say that it is not only a given that Iran is engaged in 
these underlying activities and dangerous activities, but it 
also comes at a time when we are heightening our scrutiny in 
terms of financial integrity with respect to corruption, with 
respect to human rights, with respect to beneficial ownership, 
which the Administration just published a final rule on.
    We are actually heightening international expectations in 
terms of how transparency and integrity is undertaken in the 
international system, and Iran is doing the exact opposite. And 
so there is an inherent tension in that message as well. So not 
only can we and should we use sanctions as we have in the past 
against these underlying activities, but there are heightened 
expectations moving forward that should be placed on Iranian 
banks, Iranian companies, beneficial ownership, that should 
heighten scrutiny, not lessen it, with respect to Iranian 
behavior.
    Senator Menendez. One last question. Mr. Dubowitz, I hear 
many of my colleagues say we should keep Iran's feet to the 
fire, but if there is no fire, how do you keep their feet to 
it?
    Mr. Dubowitz. Well, Senator Menendez, absolutely, and if 
you give Iran what effectively is a nuclear snapback, which is 
this ability to threaten us every time that we are going to use 
non-nuclear sanctions to deter the behavior, then, 
unfortunately, they have the upper hand, and their nuclear 
snapback ends up being a lot more powerful than our economic 
snapback, which means our ability to enforce the deal and deter 
Iranian behavior is much weaker.
    Senator Menendez. Thank you, Mr. Chairman.
    Chairman Shelby. Senator Toomey.
    Senator Toomey. Thank you, Mr. Chairman, and thank you very 
much for having this hearing. This is a very, very important 
discussion.
    I remain strongly opposed to this deal that turns over 
something on the order of $100 billion to the world's leading 
State sponsor of terrorism, a very dangerous and violent regime 
that is very hostile to the United States. But not only did we 
release all of that money, but we lifted substantial sanctions, 
allowed Iran to retain important components of its nuclear 
infrastructure. And I would just like to ask a question for the 
record. Mr. Zarate, has the Iranian parliament ratified this 
agreement?
    Mr. Zarate. To be honest, Senator, not to my knowledge.
    Senator Toomey. To your knowledge, have the top political 
authorities in Iran signed the agreement?
    Mr. Zarate. I do not think so, Senator. I have not seen 
evidence of that.
    Senator Toomey. In fact, doesn't the Administration argue 
that this is not a legally binding agreement with respect to 
Iran but, rather, a set of political commitments?
    Mr. Zarate. That is right. They argue that this is not 
technically a treat.
    Senator Toomey. Yeah. It seems a rather amorphous 
commitment on the part of the Iranians, despite the very real 
changes and concessions that the United States has made with 
the financial release, with the relief of sanctions, with 
permitting Iran to retain this infrastructure. But let me 
follow up on a line of questioning that Senator Menendez 
pursued.
    Mr. Zarate, you went through a pretty powerful list in your 
written testimony of the ways in which Iran has behaved, as Mr. 
Dubowitz put it, ``dangerous, malign, and illicit conduct'' 
post-JCPOA, right? Including the repeated ballistic missile 
tests, the fact that Iran remains a leading State sponsor of 
terror, the deployment of troops to Syria to support the Assad 
regime, Iranian continued human rights abuses, detention of two 
American citizens, arresting American sailors at gunpoint, 
continuing to develop and engage in malicious cyberattacks.
    Now, I share the view of Senator Menendez that in response 
to these really outrageous and aggressive behaviors, we have 
every right--in fact, responsibility, really, to impose the 
kind of sanctions that might dissuade these behaviors. But not 
only does the Administration disagree, it seems, with this 
approach, but would it be fair to say that the Administration 
appears to believe that it should be the United States' 
responsibility to facilitate the reintegration of Iran into the 
world economy?
    That is what it looks like to me, and that strikes me as a 
bad idea, but, Mr. Zarate, I would like your thoughts on that.
    Mr. Zarate. Senator, absolutely, and I warned about this 
danger when I testified during the JCPOA debate before you, 
that this was a potential trap, that the Iranians were going to 
push the United States to help rehabilitate their image, their 
economy, their reintegration, and that they would argue that 
the spirit and letter of the deal required it.
    Senator Toomey. Which is exactly what the Administration--
--
    Mr. Zarate. Exactly what is happening.
    Senator Toomey. And what is the problem with that? Why is 
that a bad thing for the U.S. Government to be facilitating the 
reintegration of this very hostile regime into the world 
economy?
    Mr. Zarate. Well, there are three fundamental problems: 
One, it takes Iran off the hook of dealing with the underlying 
conduct itself that is problematic--support to terrorism, 
support to Assad, human rights abuses.
    Senator Toomey. Arguably, could it not be seen to be 
rewarding that kind of outrageous behavior?
    Mr. Zarate. Potentially, and that is the second problem, 
which is creating sort of dual standards. Why are we creating 
exemptions for the Iranians when, as I said before, our 
expectations are heightened with respect to what financial 
integrity and transparency looks like in the international 
system? We are fining major global banks billions of dollars, 
and yet we are now promoting the integration of Iranian banks, 
which we know have been used and will continue to be used for 
these illicit purposes? Why? It does not make any sense. So 
there is an inconsistency there.
    And, third, we are giving up the strategic opportunity in 
putting the onus on Iran to resolve these issues themselves, to 
explain themselves to the market. That actually could promote 
reforms internally. It could force very hard decisions within 
Iran itself for the reformers, the moderates, to say, ``We can 
no longer use our banks, our economy in this way.'' So we are 
taking the hard decisions off the table and taking Iran off the 
hook.
    Senator Toomey. And it appears implicitly to be virtually 
condoning the behavior.
    But, Mr. Dubowitz, did you have any comment you would like 
to make on this?
    Mr. Dubowitz. Well, very quickly. I mean, the U.S. 
Government did not promise Iran financial and economic 
outcomes. They specifically did not negotiate outcomes.
    The second is that there is this prevailing and persistent 
myth that somehow we have to economically seduce the hard men 
of Iran, this despite the fact that President Obama's former 
DCI, Leon Panetta, said the CIA assessment is that there are no 
moderates in the regime and that the U.S. negotiator, Wendy 
Sherman, has specifically said since the deal, publicly, that 
in this regime there are hard-liners and hard-hard-liners, and 
President Rouhani is a hard-liner.
    So this notion that somehow there is--that continues to 
persist even today--an octogenarian--hard-line octogenarian was 
just appointed to the Assembly of Experts who is going to pick 
the Supreme Leader after Ali Khamenei, I do not know why this 
notion continues to persist in the halls of Congress and 
outside, that there are moderates who we should economically 
seduce. These are hard-hard-liners or hard-liners who continue 
to hold their people hostage and continue to engage in very 
dangerous and destabilizing activities.
    Senator Toomey. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Shelby. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to start out today by addressing what I see as a 
very big problem as we talk about sanctions against Iran, North 
Korea, Russia, or any other adversary of the United States: the 
fact that Adam Szubin has now been waiting more than a year for 
confirmation as Treasury's Undersecretary for Terrorism and 
Financial Crimes.
    Despite bipartisan support, despite being an undisputed 
expert in his field, despite our repeated calls for leadership 
on sanctions policy in this Administration, some of my 
colleagues refuse to give him a vote on the floor of the 
Senate. I hope we confront the irony of this situation head-on 
in tomorrow's hearing when Mr. Szubin testifies and answers our 
questions, still serving only in an acting capacity on matters 
we all agree are critical to national security. We are doing 
this man and our Nation a great disservice by our failure to 
act.
    And I would like to put this question to all the members of 
our panel here today. What are your views on Mr. Szubin's 
nomination and do you have any concerns about his 
qualifications? Mr. Zarate.
    Mr. Zarate. I know Adam Szubin personally. I worked with 
him directly. I have deep respect and affection for Mr. Szubin. 
I have no question about his integrity and I think he would do 
a great job.
    Senator Donnelly. Mr. Dubowitz.
    Mr. Dubowitz. I similarly know Mr. Szubin personally and 
have worked with him closely, and I think he is eminently 
qualified for that position.
    Senator Donnelly. Thank you. Mr. Elleman.
    Mr. Elleman. I do not know him and I am not intimately 
familiar with what he does, but I also----
    Senator Donnelly. That is still OK.
    [Laughter.]
    Mr. Elleman. ----but I have heard no reservations expressed 
by many of my colleagues.
    Senator Donnelly. Ms. Rosenberg.
    Ms. Rosenberg. I, too, have had the pleasure of working 
quite closely with Mr. Szubin. He is a dedicated public 
servant. He is knowledgeable. He is respected by those with 
whom he works and those who disagree with him. Not confirming 
him undermines his ability to do his job, which is far beyond 
the scope of the Iran deal, sanctions, and encompasses a much 
broader array of anti-money laundering and terrorist financing 
activities that are in our broader national interest to have 
him address.
    Senator Donnelly. Thank you.
    Mr. Elleman, in my other role as Ranking Member of the 
Armed Services Subcommittee on Strategic Forces, I have 
dedicated a lot of time to studying Iran's missile program and 
the threat it poses to our homeland, our forward-deployed 
forces, and our allies in the Middle East and Europe. I spent a 
week earlier this year meeting with U.S. military leaders and 
foreign officials in Israel and across the Gulf States. One of 
our unifying concerns is that Iran continued to grow the size 
and sophistication of its ballistic missile arsenal even under 
the heaviest years of sanctions.
    I am a firm believer we must invest in U.S. and allied 
missile defense systems to counter the threat posed by Iran's 
ballistic missiles. However, I am also interested in your views 
on how we can establish more effective sanctions related to 
Iran's missile program. So what are your top recommendations 
for improving our sanctions policy and enforcement on Iran's 
ballistic missile activities?
    Mr. Elleman. Well, I think for the sanctions to actually 
retard or erode Iran's capacity to grow the size of their 
arsenal or the capabilities of its arsenal, the sanctions would 
have to be international. You know, the U.S. applying certain 
restrictions will probably not do it because we are not trading 
with Iran and they are primarily relying on equipment--
manufacturing equipment and components that have been obtained 
from Europe and other countries. So it has to be multilateral.
    But I would also say the--you know, the primary provider of 
necessary technologies has been North Korea in the past. I am 
not aware of significant transfers of equipment or technology 
over the past 10 years or so.
    Having said that, if Iran truly wants to expand the size of 
its arsenal, it is going to have to get missile engines from 
someone--and North Korea would be the most likely source--and 
the Proliferation Security Initiative would probably be the 
best tool to approach that.
    Ms. Rosenberg. Mr. Senator.
    Senator Donnelly. Yes?
    Ms. Rosenberg. May I speak to this issue as well?
    Senator Donnelly. You may.
    Ms. Rosenberg. Thank you.
    I agree that internationalization and partnering with 
international jurisdictions to go after Iran's dangerous and 
concerning ballistic missile activities is certainly a strong 
direction for the sanctions program, as well as going after the 
procurement networks, a number of which the components--a 
number of which you have just mentioned.
    Furthermore, additional efforts outside of the sanctions 
realm would certainly be beneficial, including interdiction 
efforts as well, which is a matter for different areas of 
Government.
    Senator Donnelly. What is your opinion on--Ms. Rosenberg--
on how our counterterrorism sanctions can become more 
effective? What are your best ideas on that?
    Ms. Rosenberg. Thank you for the question. I have offered a 
couple of ideas in my testimony, including naming the IRGC in 
its entirety under Executive Order 13224, the terrorism 
authority, and going after, aggressively, agents, 
instrumentalities of the IRGC inside and outside of Iran, and 
asking foreign counterparts in other jurisdictions, 
specifically the EU, to mirror U.S. sanctions wherever possible 
in that domain.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Chairman Shelby. Senator Scott.
    Senator Scott. Thank you, Mr. Chairman.
    Mr. Dubowitz--is that right?
    Mr. Dubowitz. Dubowitz, yes.
    Senator Scott. Dubowitz. OK, great.
    In a recent televised interview, you compared the Iran deal 
to the North Korean deal in the 1990s. Obviously, that deal was 
flawed and we are still dealing with the serious ramifications 
of that deal. What specific similarities do you see in the two 
deals? And how strongly do you feel that 10 years from now we 
will be dealing with as volatile of a situation in Iran as we 
now see in North Korea?
    Mr. Dubowitz. Thank you, Senator. Well, I think some of the 
similarities are certainly significant flaws and loopholes with 
respect to the reversibility of the nuclear restrictions.
    The upfront sanctions relief nature of both deals--in fact, 
as I think Mr. Zarate can tell you even in more detail, one of 
the biggest mistakes that the Bush administration made was 
trading away extensive economic leverage that was established 
through the designation of Banco Delta Asia for a continuation 
of that--of that nuclear agreement and North Korean nuclear 
concessions that not only ended up being reversible but that 
the North Koreans violated egregiously.
    And so the deal itself was fundamentally flawed in its 
architecture, just like the JCPOA--reversible concessions, big 
loopholes, and trading away significant economic leverage.
    Senator Scott. A second question to you, sir. How important 
is enforcement of the sanctions against Iran that remain in 
place? And can you--can you supply any evidence that Iran 
believes that we, as a country, are serious about our 
enforcement mechanisms? It certainly seems to me to be--if I 
were in Iran, I would not take what we have done so far very 
seriously since they have already tested some ballistic 
missiles, from my perspective.
    Mr. Dubowitz. Well, certainly the Iranians have made it 
clear that the procurement sanctions that have been imposed by 
the U.S. Treasury Department are meaningless, because these 
procurement networks can be reconstituted. And I would like to 
just provide a bit more detail on these ballistic missile 
sanctions.
    For many years people said that you could not use powerful 
economic sanctions to change the risk-reward calculus of the 
Iranian regime with respect to its nuclear program. I think 
Congress proved that wrong. I think the U.S. Treasury 
Department proved that wrong.
    I think with respect to ballistic missiles, as opposed to 
these narrow procurement sanctions we should look at sectors of 
the Iranian economy that actually support the ballistic missile 
program--mining and metallurgy, energy, automotive, telecom, 
electronics, construction, and the research institutions that 
back it up. All of these sectors of Iran's economy provide 
vital technologies, parts and components for Iran's missile 
program. If we were to impose sectors-based sanctions on those 
essential sectors that support the missile program, I think we 
would have a chance of actually changing this calculus.
    So I believe that we need to look at much more coercive 
sanctions, permissible by the JCPOA, to change the mindset of 
the reigning regime with respect to its missile program.
    Senator Scott. Thank you.
    Mr. Zarate or Mr. Dubowitz, Treasury officials stated 
recently that they are not planning on issuing general license, 
but this contradicts earlier statements by the Obama 
administration that general license were a possibility. What 
are some of the specific hazards the U.S. could encounter if it 
grants a general license to Iran?
    Mr. Zarate. Senator, the relief to allow Iran to deal in 
dollars for international trade would give not only a stamp of 
legitimacy to Iranian behavior but would facilitate their 
reintegration into international trade, given the fact that the 
dollar is the predominant currency, the currency that is used 
in the oil trade in particular but also internationally.
    And so this could take a variety of forms. It could be a 
general license. It could be a specific license. But it could 
be some form that allows an offshore facility that then allows 
Iran to access dollars in some way that then would give the 
markets confidence to be able to do business with Iran. That is 
what Iran wants and it is certainly something that the 
Secretary of State seems to be suggesting that we should be 
offering.
    And I think the Treasury officials are trying to back away 
from that, in particular given the fact that, if we give this 
concession in the context of the JCPOA, we are admitting that 
our ability to withdraw the access to the dollar, which is a 
principal and important financial tool for us, becomes embedded 
in the JCPOA itself. And then we cannot use it for other 
reasons.
    And so the Iranians are very smart about this. They have 
been gaming this throughout to get as much maximum benefit from 
U.S. concessions and the spirit and letter of the deal as 
possible.
    Senator Scott. Thank you.
    Mr. Dubowitz. Senator, if I could just add to that?
    Senator Scott. Yes.
    Mr. Dubowitz. Tomorrow at the hearing, when the Government 
witnesses are here, please do not get distracted about these 
commitments about access to the U.S. financial system. Also, do 
not get distracted by the notion of general licenses.
    What I think the Administration is doing is they are using 
a class-of-transactions approach to sort of step by step, drip 
by drip begin to dollarize Iranian transactions. You have seen 
that with heavy water. You have seen that with aircraft 
licenses. You have seen that with the return of restricted oil 
escrow funds. You have seen that with possible humanitarian 
transactions.
    So it is a class-of-transactions approach where the 
Administration will attempt to dollarize Iranian transactions, 
not through a wholesale general license but by these classes of 
transactions, so by the end of the Administration the Iranians 
have effectively gotten access to the U.S. dollar and used that 
legitimization as a way to get themselves out from under the 
strictures that they have been imposed.
    Senator Scott. Thank you very much.
    Chairman Shelby. Senator Warren.
    Senator Warren. I think Senator Tester is up next.
    Chairman Shelby. OK.
    Senator Tester. Well, you are very gracious, Senator 
Warren. Thank you. And thank you, Mr. Chairman. And thank you 
all for your testimony.
    I want to go back to one of the questions asked of you, Mr. 
Elleman, about Iran's testing of missiles. And I do not want to 
put words in your mouth. Did you say they are testing them at 
the same rate since the JCPOA as they were before, or did you 
say something different?
    Mr. Elleman. What I said was the resumed testing since 
October of 2015 is a historic norm for the way they have 
tested. But I did also note that they did not conduct tests in 
2005, 2013, or 2014 when nuclear negotiations were making 
process.
    Senator Tester. OK. All right. So they are--I mean, they 
are basically acting the same way they did before the JCPOA was 
put into effect as far as missile capabilities?
    Mr. Elleman. In terms of missile capabilities that is 
correct.
    Senator Tester. OK. And so from a sanctions standpoint, do 
you advocate putting more sanctions on because of the missile 
testing they have done? Or do you not have a position on that?
    Mr. Elleman. Well, I think sanctioning the individuals and 
enterprises directly involved in the program is----
    Senator Tester. OK.
    Mr. Elleman. ----is an appropriate measure. Whether it is 
effective or not----
    Senator Tester. OK.
    Mr. Elleman. ----is probably another story.
    Senator Tester. OK, thank you.
    Elizabeth, the last Iranian election, do you know anything 
about that? I mean, did the moderates win or did the hard-
liners win? What happened there?
    Ms. Rosenberg. There was a relatively strong showing for 
what we might characterize as somewhat more pragmatist rather 
than hard-liner representatives. Nevertheless, the vetting that 
occurs in order to allow candidates to stand already selects 
out potential candidates who are on the more hard-line 
spectrum. Nevertheless, there were a relatively good showing by 
pragmatists.
    Senator Tester. So let me dig into this a little more 
because I think it goes back to Mr. Dubowitz's answer, and that 
is that would you classify the last election as being a 
different step than they had taken in previous elections, or 
same old same old stuff?
    Ms. Rosenberg. We could characterize it as in line, broadly 
speaking, with the election of President Rouhani, which is to 
say an expression of public sentiment that is veering a bit 
more toward pragmatic interest in international engagement, 
including economic relief.
    Senator Tester. And do you attribute that to anything 
specifically?
    Ms. Rosenberg. Extreme economic difficulty over the last 
several years and desire to see change, including getting out--
--
    Senator Tester. OK.
    Ms. Rosenberg. ----from under sanctions.
    Senator Tester. OK.
    Senator Menendez talked about sanctions, and you talked 
about the fact, Michael, that the sanctions needed to be 
multilateral, whatever we do. Do you think the sanctions that 
we put on Iran would have been effective--would have been 
effective if it would have just been the United States and EU, 
and China and Russia would not have been onboard?
    I am talking to Michael.
    Mr. Elleman. In terms of their nuclear and missile 
programs, likely not.
    Senator Tester. OK. So you believe it was critically 
important that the P5+1 truly had to stick together on the 
sanctions?
    Mr. Elleman. Yes.
    Senator Tester. Do you agree with that, Elizabeth?
    Ms. Rosenberg. I do.
    Senator Tester. OK. Let me ask all of you, the Ranking 
Member went through a list of things that Iran had done. 
Elizabeth answered yes to all of them. Would any of you 
disagree with Elizabeth's answers?
    Mr. Dubowitz. Yeah, I would disagree. I mean, again, I made 
this point before.
    Senator Tester. You do not think that they have removed the 
nuclear material?
    Mr. Dubowitz. No, I would disagree with the conclusion that 
Iran is in full compliance with the JCPOA.
    Senator Tester. OK, that is not what he asked. He asked if 
they had removed the material, if they had filled the reactors, 
if they got rid of the heavy water. Would you agree with that?
    Mr. Dubowitz. I would----
    Senator Tester. Would you agree that they are still two to 
3 months away from having access to a nuclear bomb that they 
were when we ratified the JCPOA?
    Mr. Dubowitz. No. Based on the assessment of David 
Albright, they are 6 to 7 months away from having a nuclear 
weapon because they have the ability to reconstitute, replace, 
and reinstall the P1 centrifuges that did not get dismantled 
but actually just got warehoused. So we gained about 3 or 4 
months in terms of nuclear breakout.
    Senator Tester. What about the heavy water?
    Mr. Dubowitz. Well, in terms of the heavy water, the 
Iranians continue to produce heavy water. They continue to 
actually improve their capability to produce heavy water. And 
when all the restrictions on heavy water and plutonium reactors 
and reprocessing go away, Iran will be in a stronger position 
to actually develop a plutonium bomb.
    Senator Tester. OK.
    In the heavy water realm, Elizabeth, would you classify it 
better in our hands, or Russia and China's hands?
    Ms. Rosenberg. The United States has a strong record on its 
ability to handle dangerous nuclear materials. I feel more 
confident in the United States' experts managing heavy water in 
this jurisdiction----
    Senator Tester. Yeah.
    Ms. Rosenberg. ----rather than enabling States of 
proliferation concern to have access to that material.
    Senator Tester. All right.
    Thank you, Mr. Chairman. Thank you, all of you, for your 
testimony.
    Chairman Shelby. Senator Cotton.
    Senator Cotton. Thank you all for appearing today.
    Mr. Zarate, you worked with Stuart Levey at the Treasury 
Department. Is that correct?
    Mr. Zarate. I did, Senator.
    Senator Cotton. How long did you all work together?
    Mr. Zarate. We overlapped for a year and then I went to the 
White House to serve as Deputy National Security Advisor while 
he served as Undersecretary of the Treasury for Terrorism and 
Financial Intelligence.
    Senator Cotton. And he is now the chief legal officer of 
HSBC Holdings.
    Mr. Zarate. That is correct.
    Senator Cotton. Did you read Mr. Levey's Wall Street 
Journal op-ed a couple of weeks ago in the aftermath of John 
Kerry traveling Europe, acting as the Iranian Chamber of 
Commerce president?
    Mr. Zarate. I did read the op-ed, sir.
    Senator Cotton. He said in that op-ed that, Washington is 
pushing non-U.S. banks to do what it is still illegal for 
American banks to do. Do you agree with that statement?
    Mr. Zarate. Based on press reports and what I have read, 
yes.
    Senator Cotton. Could you elaborate a little bit on what 
Mr. Levey might have meant? What is Washington pushing non-U.S. 
banks to do that U.S. banks cannot do?
    Mr. Zarate. I think the concern was, based on the meetings 
that the Secretary of State was having in addition to some of 
the road shows that had been deployed on behalf of the U.S. 
Government, that there have been messages sent to European 
banks that there are no longer major restrictions to doing 
business in Iran and that they can manage the risks of doing 
business with or in Iran.
    Senator Cotton. And a nearby article the same day suggested 
that Secretary Kerry was not successful in persuading those 
European banks to do such business. And Mr. Levey concluded his 
op-ed by saying, quote, ``Our decisions''--HSBC--``will be 
driven by the financial-crime risks and the underlying conduct. 
For these reasons, HSBC has no intention of doing any new 
business involving Iran. Governments can lift sanctions but the 
private sector is still responsible for managing its own risk 
and no doubt will be held accountable if it falls short.''
    Mr. Zarate. Right.
    Senator Cotton. Do you agree that that is a--that private 
actors face genuine risk of being held accountable for doing 
what the current Administration is encouraging them to do?
    Mr. Zarate. Absolutely, Senator. As part of my private 
practice I work with banks like HSBC and others, dealing with 
the regulatory and real risks in the sanctions and financial 
crime environment. And they worry every day that not only are 
they going to be second-guessed but they will be fined billions 
of dollars, and that their access to U.S. markets will be put 
at risk if they do not manage their risk.
    And so there is a sense in the private sector that there 
are mixed messages coming from the U.S.--strict adherence to 
U.S. norms and values and laws, and then a push to deal with 
what is an inherently risky jurisdiction in Iran at a time when 
those expectations are actually higher than ever before; 2016 
presents heightened risk for banks to do business in 
financially risky environments, not less risk.
    Senator Cotton. So you say mixed messages, so not just risk 
that a future Administration or future Congress may view the 
matter differently but actually different messages from 
different parts of the United States Government at this very 
moment.
    Mr. Zarate. Absolutely, and not just the U.S. Government 
but also State and local authorities and regulators. New York 
authorities have placed some of the most stringent and heavy 
sanctions and enforcement actions against U.S. and European 
banks. And so banks are very worried about not just what the 
U.S. Treasury says or what the State Department says, but what 
New York and other regulator--other regulators have to say 
about this.
    In addition, there is the real risk that what banks have to 
worry about, which is transparency and accountability, is 
absolutely absent in the Iranian market. And so the promotion 
of banking and any commercial activity in that environment is 
completely anathema to the message that the U.S. Government has 
been sending internationally for the last 15 years.
    Senator Cotton. So these banks, and for that matter other 
companies that might wish to do business with Iran, in your 
professional judgment, face grave financial, legal, political, 
and reputational risks?
    Mr. Zarate. Enormous risks, in fact heightened risks after 
implementation day, as opposed to less risk.
    Senator Cotton. Would you counsel any responsible member of 
a board of directors or a corporate general counsel for such 
banks or companies to accept those risks when the world may 
look very differently in a mere 7 months?
    Mr. Zarate. I would not because the sanctions environment 
is confused. The risk of Iranian cheating is high. The 
realities of Iranian lack of transparency, corruption, 
financial crime, and money laundering is incredibly high. And 
the inability for banks to actually understand who their 
customers are, who their counterparties are at a time when we 
are putting out new regulations just this month with respect to 
understanding beneficial ownership in shell companies, 
especially in the wake of the Panama Papers, is an incredibly 
risky proposition to go into Iran at this point.
    Senator Cotton. OK.
    And my time is nearly expired. Mr. Dubowitz, just one 
question about the total value of sanctions relief that Iran 
can expect to receive under the JCPOA. The President himself 
has suggested it could be as high as $150 billion. Secretary 
Kerry and other Administrations have suggested it may be a low 
as 3 or $5 billion. Other Administration officials have accused 
Members of Congress of lying by going with figures closer to 
the president's own figure than with Secretary Kerry's figure. 
What would you estimate, based on your calculations, is the 
total amount of sanctions relief that Iran can expect to 
receive under the JCPOA?
    Mr. Dubowitz. Well, in terms of restricted oil escrow 
assets and frozen assets that are returned, they will have 
access to $100 billion, of which they will have about $55 
billion in liquid assets and the remaining $45 billion to pay 
off their debts.
    But, Senator, as you know, if I give you $100 and you 
pocket $55, and you take $45 and you pay off your credit card, 
right, the net benefit to you that you have got to report to 
the IRS is $100. So that is the net benefit from the frozen 
assets.
    In addition, Iran is going to receive hundreds of billions 
of dollars of additional sanctions relief based on oil exports, 
petrochemical exports, the expansion of its auto sector. And 
already Iran is predicted to have GDP growth of 3 to 4 percent. 
Inflation has gone down from 40 percent to about 11 percent.
    So Iran has actually already received a significant 
economic windfall from both the JCPOA and the interim agreement 
numbering in the hundreds of billions of dollars in terms of 
its macroeconomic stability and recovery.
    Senator Cotton. But from the JCPOA itself somewhere in the 
neighborhood of $100 billion?
    Mr. Dubowitz. $100 billion in the access to frozen assets 
and restricted oil funds.
    Senator Cotton. Yeah. And then of course there is the 
additional benefits of economic growth since the JCPOA and the 
Obama administration have brought 6 percent growth to Iran 
while leaving us with 2 percent growth.
    Mr. Dubowitz. And the Obama administration helped Iran 
avoid a balance-of-payments crisis and a severe economic crisis 
in 2013 through the interim agreement and through blocking 
legislation that this Committee and other committees have 
forwarded.
    Senator Cotton. Thank you very much.
    Chairman Shelby. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Iranian officials are complaining about what they see as 
the slow pace of sanctions relief and the lack of additional 
foreign investment that they expected to see as a result of the 
nuclear deal. Now, if Iran complies with its obligations under 
the nuclear deal, they will get the sanctions relief that they 
bargained for. But Iran has a long history of money laundering, 
terrorist financing, corruption, which are among the reasons 
that Iran remains a pariah State in the eyes of the 
international community.
    Ms. Rosenberg, instead of blaming the United States for its 
failure to emerge from economic isolation, what steps should 
Iran be taking if it wants to become a responsible member of 
the international financial and commercial system?
    Ms. Rosenberg. Thank you for the question.
    To begin with, it could stop funding terrorism----
    Senator Warren. Yeah, that would be a good one.
    [Laughter.]
    Ms. Rosenberg. ----and additionally, use this newly passed 
criminalization of terrorism law to prosecute cases of this, 
working with the IMF and the FATF to improve controls and risks 
in its system related to money laundering and terrorist 
financing.
    It must address a variety of prudential risks related to 
capital adequacy, corporate governance, tax and financial 
disclosure, and furthermore, on a political level, to cease 
engaging in the kind of provocative regional behaviors that are 
a disincentive to those who would invest in the jurisdiction.
    Senator Warren. All right. Well, thank you. That is very 
helpful. You know, that is a long laundry list of reasons why 
companies are still reluctant to invest in Iran right now that 
have nothing to do with the nuclear deal. Iran is ranked 130th 
on the world Transparency International's Corruption 
Perceptions Index. It is ranked 118th on the World Bank's Ease 
of Doing Business Index. It is ranked 108th on the 
International Property Rights Index.
    Ms. Rosenberg, if Iran complies with the nuclear deal, gets 
the sanctions relief it bargained for under that deal but fails 
to address systemic problems under these key economic metrics, 
is it realistic for them to expect to be reintegrated into the 
international financial system or to see serious and sustained 
economic growth in the country?
    Ms. Rosenberg. I think, as has been pointed out, that there 
is potential for growth even under these difficult 
circumstances. However, few would believe that they are in any 
way living up to the potential that geological assets, a well-
educated youthful population could provide if they were 
actually managing their risks.
    Senator Warren. Well, that is very helpful because, you 
know, it is no secret that there are some people in Congress 
who are committed to seeing the Iran nuclear agreement fail at 
any price, and we are hearing a lot of rumbling from them about 
holding up sanctions relief even if Iran complies with the 
deal.
    Now, that might be good politics for some senators, but let 
us be clear: Such a move will play right into the hands of 
hard-liners in Iran who want to blame the West for their 
economic woes.
    Here is the truth: We could give Iran all of the relief 
contemplated under the nuclear agreement tomorrow and Iran 
would still need to implement significant structural reforms 
and change its regional behavior in order to attract the 
sustained investment and reintegrate itself into the 
international financial and commercial system. Iran must 
implement serious structural reforms, crack down on money 
laundering, as you said, and stop sponsoring terrorism. Our job 
here is to keep the pressure on the Iranians to make sure that 
those changes are made, and not give them an excuse to avoid 
making those changes. Our job is to make sure that if Iran 
rejects comprehensive reforms, that it has no one to blame for 
its economic troubles other than itself. Now, there is one more 
thing I would like to ask you, and that is Adam Szubin is the 
Acting Undersecretary for Terrorism and Financial Crimes at 
Treasury. He is in charge of enforcing our sanctions against 
countries like Iran and targeting the financial networks of 
terrorist groups like ISIS. It has been more than a year since 
Mr. Szubin was nominated to this position and the Republicans 
who control the Senate have still not held a vote to confirm 
him.
    Ms. Rosenberg, given the critical importance of Mr. 
Szubin's work to our national security, is there any credible 
reason for Republican senators to continue blocking his 
confirmation?
    Ms. Rosenberg. I think there is no credible reason to block 
his nomination--his confirmation. And in fact, it undermines 
broad national security interests in a variety of areas--
proliferation, terrorist financing, the beneficial ownership 
and CDD rule that was mentioned earlier on the panel--if we do 
not--if he is not confirmed to this position.
    Senator Warren. So a delay undermines our national 
security.
    Ms. Rosenberg. I agree.
    Senator Warren. Thank you.
    Thank you, Mr. Chairman.
    Chairman Shelby. Thank you all your appearance today. This 
has been a good hearing. And the Committee will be meeting--
continue to meet on this issue. Thank you very much.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]
                  PREPARED STATEMENT OF JUAN C. ZARATE
          Chairman and Cofounder, Financial Integrity Network
                              May 24, 2016
    Chairman Shelby, Ranking Member Brown, and distinguished Members of 
the Senate Committee on Banking, Housing, and Urban Affairs, I am 
honored to be with you today to discuss the role and significance of 
sanctions in the Iran nuclear deal, the Joint Comprehensive Plan of 
Action (JCPOA). The JCPOA is an ongoing and unfolding agreement, with 
significant implications for how the United States continues to 
leverage its economic and financial influence to affect Iranian 
behavior and counter its nefarious activity. This is an important 
moment for the United States to examine Iranian activity around the 
globe soberly and determine how best to proceed with the agreement and 
against the Iranian threat.
    When the JCPOA was being debated, I expressed deep concerns and 
reservations about its structure, demands, and effects on U.S. 
interests, especially in anticipation of increased Iranian belligerence 
and adventurism. In detailed testimony before both this Committee and 
the Senate on Foreign Relations Committee, I explained that the JCPOA 
was fundamentally flawed, in part because it would empower and enrich 
the regime and ultimately constrain our ability to use the most 
effective financial and economic tools of isolation to counter 
dangerous Iranian behavior.
    With strategic patience, Iran can march toward a weaponized program 
with greater capabilities, breakout capacity, and more economic 
resources, resilience, and connectivity to the global oil markets and 
commercial system. Even if Iran complies with all elements of this 
deal, Tehran will end up with an unfettered opportunity to break out 
and weaponize its nuclear program, overtly or covertly, along with an 
ability to arm itself and its allies more openly and aggressively. The 
end state of the agreement takes us far afield from the declared goal 
of successive Administrations at the start of negotiations.
    The structure, processes, and nature of this agreement give Iran 
the benefit of the doubt that it is pursuing a peaceful program, when 
the onus should remain on Iran to prove the peaceful nature of its 
program, as constructed in the prior, relevant UN Security Council 
Resolutions (UNSCRs).
    Ultimately, what we negotiated and promised was Iran's 
reintegration into the global economic system. The JCPOA sacrifices the 
ability of the United States to use its financial and economic power 
and influence to isolate and attack dangerous and problematic Iranian 
activity--beyond the nuclear program. Beyond simple sanctions relief, 
we negotiated away one of our most important tools of statecraft--the 
very financial and economic coercion that helped bring the Iranian 
regime to the table. Though ``non-nuclear'' sanctions were supposedly 
off the table, the spirit and letter of the agreement neuters 
Washington's ability to leverage one of its most powerful tools--its 
ability to exclude rogue Iranian actors and activities from the global 
financial and commercial system.
    As I explained last year, promising Iranian reintegration into the 
global system was not possible unless we were willing to defang our 
sanctions regime and ignore Iranian behavior; rehabilitate the 
perception of the Iranian regime ourselves; and take the most effective 
tools of financial isolation off the table.
    This is a critical point as Iran continues the range of dangerous 
activities that have been the subject of sanctions and international 
opprobrium. In the wake of the JCPOA implementation, these activities 
have included the following:

  1.  Iran has conducted repeated ballistic missile tests in violation 
        of UN resolutions, including earlier this month according to 
        Iranian news reports, and promises further tests. The launch in 
        March also coincided with Vice President Biden's visit to 
        Israel.

  2.  Qassem Soleimani, the head of the Iranian Revolutionary Guard 
        Corps' (IRGC) Qods Force, traveled twice to Moscow in 
        contravention of international travel bans to coordinate 
        military cooperation with the Russian Government, to include 
        the delivery of the S-300 system to Iran and defense of the 
        Assad regime in Syria.

  3.  Iran remains the leading State sponsor of terror and has 
        continued its direct support to terrorist proxies throughout 
        the region, to include Hizballah's activities in Lebanon and 
        Syria, as well as Iraqi Shi'ite militias who were responsible 
        for the deaths of hundreds of Americans in Iraq and are now 
        deployed in Syria to fight for the Assad regime. Iran's support 
        of terrorist proxies is intended to destabilize regional 
        Governments allied with the United States, and the Gulf States 
        have uncovered and interdicted Iranian arms shipments to 
        militias. In recent months, international naval forces have 
        interdicted Iranian arms shipments likely headed to Houthi 
        rebels in Yemen.

  4.  Iran has deployed troops--regular and from the IRGC--to Syria to 
        fight for and defend the Assad regime, with reports of 
        thousands on the ground. Qassem Soleimani continues to appear 
        at key battlefronts throughout Syria, and the Iranians help 
        funnel Iraqi, Afghani, and Pakistani Shi'ite militias into the 
        battlefield.

  5.  Iran has continued to engage in human rights abuses and the 
        restriction of democratic norms. In the run up to recent 
        parliamentary elections, Iran disqualified thousands of 
        individuals from running \1\ and continues to hold the leaders 
        of the Green Movement under house arrest.
---------------------------------------------------------------------------
     \1\ Sam Wilkin, ``Iran Excludes Most Candidates in Elite Assembly 
Election'', January 26, 2016 (http://www.reuters.com/article/us-iran-
election-candidates-idUSKCN0V419V).

  6.  Iran detained two Iranian-American citizens, a father and son, in 
        October 2015 and February 2016, and continues to hold them. In 
        addition, Robert Levinson remains missing after disappearing on 
---------------------------------------------------------------------------
        Kish Island on March 9, 2007.

  7.  On January 12, 2016, Iranian naval forces arrested American 
        sailors at gunpoint, broadcasting the video of their detention, 
        and subsequently mocking the sailors through a reenactment at a 
        rally commemorating the anniversary of the Iranian Revolution. 
        The Iranians detained the American sailors days before the 
        implementation of the JCPOA, and hours before the President's 
        State of the Union address.

  8.  Iran continues to develop its cyber capabilities and has engaged 
        in malicious cyberattacks against U.S. Government sites, the 
        U.S. private sector, and specific individuals. In March 2016, 
        the Department of Justice indicted seven individuals who worked 
        for the IRGC and carried out attacks on forty-six (46) American 
        banks (including JPMorgan Chase, Bank of America, Capital One, 
        and PNC Bank), the New York Stock Exchange, AT&T, and the 
        Bowman Dam in a suburb of New York. In February 2014, Iran 
        launched a cyberattack against the Las Vegas Sands Corporation.

    Much of this activity is not a surprise, but it cannot be dismissed 
as simply the bad behavior of a recalcitrant IRGC or extremists within 
the Iranian system. In the Iranian system, these actions are blessed by 
the Supreme Leader, designed to promote the interests of the regime, 
and calculated to test the will of the West.
    Importantly, the nature of the regime, its control of the economy, 
and its willingness to use the financial system to pursue all its goals 
internally and externally has not changed. The Iranian system is 
corrupt, lacks transparency at all levels, and is centrally controlled 
by the regime. This--along with the uncertainty of how the JCPOA will 
unfold--ultimately creates enormous risk for legitimate international 
actors and companies considering doing business in or with Iran. This 
explains why there has not been a wave of Western businesses investing 
aggressively or operating directly in Iran. It further explains why the 
Iranian leadership continues to complain that the United States has not 
satisfied its side of the bargain.
Exposing the Risky Nature of the Iranian Regime
    The risks are real for the international business and banking 
communities, given the nature of the regime, the opacity of its 
economy, its continued dangerous and threatening activities, and 
remaining sanctions.
    The constriction campaign that brought Iran to the negotiating 
table was premised on the suspicion of Iran's behavior and use of its 
financial and commercial system for illicit and dangerous purposes. The 
U.S. Treasury targeted Iran's banks by using Iran's own conduct--its 
proliferation activity, support for terrorist groups and Shi'ite 
militias, and lack of anti-money laundering controls, as well as the 
secretive and corrupt nature of the regime itself--as the cornerstone 
of the campaign. Iran's suite of suspect activities and attempts to 
avoid international scrutiny spurred the private sector to stop doing 
business with Iran. No reputable bank has wanted to be caught 
facilitating Iran's nuclear program or helping it make payments to 
Hizballah terrorist cells around the world. If they did, they would be 
caught and sanctioned, with enormous reputational and business 
consequences. These concerns continue.
    This produced a virtuous cycle of isolation that reduced Iranian 
access to the international financial system more and more over time. 
The more the Iranians tried to hide their identities or evade 
sanctions, the more suspect their transactions would appear and the 
riskier it would become for banks and other financial institutions to 
deal with them. Over time, bank accounts, lines of credit, and 
correspondent accounts were shut down. Iran's own actions to avoid 
scrutiny and obfuscate transactions led to greater financial 
constriction.
    The Iranians deepened their greatest vulnerability. They blended 
legitimate business transactions with illicit ones by funneling them 
through similar conduits. The Iranian regime often tried to hide the 
nature of its transactions and the identities of the Government 
entities involved. They used front companies, cut-outs, and businessmen 
to acquire items and goods abroad that were hard to purchase, 
sanctioned, or tied to their nuclear ambitions or their weapons 
programs.
    At the same time, the Iranian military was taking greater control 
of the Nation's economy. Importantly, the predominant economic player 
was Iran's IRGC, the elite military and security unit founded in 1979. 
The IRGC has gained more power and influence over time as the protector 
and exporter of the revolution and reports directly to the Supreme 
Leader, Ayatollah Ali Khamenei.
    The IRGC is an economic juggernaut, with responsibilities related 
to the development of weapons of mass destruction, missile systems, and 
overseas operations. It is deeply involved in the Iranian nuclear 
program, and its international arm, the Qods Force (IRGC-QF), is 
responsible for providing support to terrorist proxies and exporting 
the Iranian Revolution. Between them, the IRGC and its Qods Force are 
responsible for all the activities--weapons proliferation, terrorist 
support, and militant activity--for which Iran was sanctioned in the 
past.
    The IRGC--with its vast network--has embedded itself into more 
industries within Iran, ultimately building what has been called a 
veritable business empire. \2\ The regime and the IRGC's control of 
``charitable'' foundations--known as bonyads--with access to billions 
of dollars of assets in the form of mortgages and business interests 
for veterans of the Iranian military--served as the baseline of its 
economic power, along with its ability to construct infrastructure 
through a corps of engineers. The reach of the IRGC's economic empire 
now extends to majority stakes in infrastructure companies, shipping 
and transport, beverage companies, and food and agriculture companies. 
\3\
---------------------------------------------------------------------------
     \2\ Frederic Wehrey, Jerrold D. Green, Brian Nichiporuk, Alireza 
Nader, Lydia Hansell, Rasool Nafisi, and S.R. Bohandy, ``The Rise of 
the Pasdaran: Assessing the Domestic Roles of Iran's Islamic 
Revolutionary Guards Corps'' (Washington, DC: RAND Corporation, 2009).
     \3\ Emanuele Ottolenghi, ``The Pasdaran: Inside Iran's Islamic 
Revolutionary Guard Corps'' (Washington, DC: Foundation for Defense of 
Democracies, 2011), pp.44-45.
---------------------------------------------------------------------------
    In 2006, the IRGC acquired control of the Iranian 
telecommunications sector, and it began to control more elements of the 
Nation's energy sector, including the development of pipelines and the 
valuable South Pars oil field. This allowed the IRGC to exclude 
competition and make it more difficult for legitimate international 
businesses to operate. Some estimates note that the IRGC controls 
between 25 and 40 percent of Iran's gross domestic product (GDP). \4\ 
The IRGC is deeply involved in building Iran's infrastructure, pursuing 
projects such as deep-water ports and underground facilities important 
to Iran's defense and economy. These projects and industries give the 
IRGC political power and access to profits and capital.
---------------------------------------------------------------------------
     \4\ Ibid, p.43.
---------------------------------------------------------------------------
    The IRGC intervenes in Iran's economy through three principal 
channels: The IRGC Cooperative Foundation (its investment arm), the 
Basij Cooperative Foundation, and Khatam al-Anbiya Construction 
Headquarters. The Khatam al-Anbiya (KAA), a massive IRGC conglomerate, 
was designated by the United States as a proliferator of weapons of 
mass destruction. \5\ It is Iran's biggest construction firm and, 
according to some estimates, ``may be its largest company outright, 
with 135,000 employees and 5,000 subcontracting firms.'' \6\ The value 
of its current contracts is estimated to be nearly $50 billion, or 
about 12 percent of Iran's gross domestic product. \7\ KAA has hundreds 
of subsidiaries in numerous sectors of Iran's economy including its 
nuclear and defense programs, energy, construction, and engineering. 
The company is also involved in ``road-building projects, offshore 
construction, oil and gas pipelines, and water systems.'' \8\ EU 
sanctions against the company will be lifted after 8 years, whether or 
not the IAEA concludes that Iran's nuclear program is peaceful.
---------------------------------------------------------------------------
     \5\ Department of State, Office of the Spokesman, ``Fact Sheet: 
Designation of Iranian Entities and Individuals for Proliferation 
Activities and Support for Terrorism'', October 25, 2007 (http://2001-
2009.state.gov/r/pa/prs/ps/2007/oct/94193.htm).
     \6\ Parisa Hafezi and Louis Charbonneau, ``Iranian Nuclear Deal 
Set To Make Hardline Revolutionary Guards Richer'', Reuters, July 6, 
2015 (http://www.reuters.com/article/2015/07/06/us-iran-nuclear-
economy-insight-idUSKCN0PG1XV20150706); Emanuele Ottolenghi and Saeed 
Ghasseminejad, ``The Nuclear Deal's Impact on Iran's Revolutionary 
Guards'', Foundation for Defense of Democracies, July 17, 2015 (http://
www.defenddemocracy.org/media-hit/emanuele-ottolenghi-the-nuclear-
deals-impact-on-irans-revolutionary-guards/).
     \7\ Benoit Faucon and Asa Fitch, ``Iran's Guards Cloud Western 
Firms' Entry After Nuclear Deal'', The Wall Street Journal, July 21, 
2015 (http://www.wsj.com/articles/irans-guards-cloud-western-firms-
entry-after-nuclear-deal-1437510830).
     \8\ Ibid.
---------------------------------------------------------------------------
    These three companies are direct shareholders of almost three 
hundred known businesses. My colleagues at the Foundation for Defense 
of Democracies have created a database of these companies and board 
members and provided it to the U.S. Government. \9\ As a result of the 
IRGC's control of the economy--control that has grown over time--
together with sanctions relief, the risk of regime control over the 
economy will grow. In addition, the reality and risks of Iranian 
sanctions evasion, money laundering, the lack of transparency, and 
other financial crimes--the subject of international concern and U.S. 
regulatory action against Iran under the USA PATRIOT Act Section 311--
will increase, not decrease over time.
---------------------------------------------------------------------------
     \9\ Iranian Official Journal, accessed July 20, 2015 (http://
www.gazette.ir/).
---------------------------------------------------------------------------
    With the IRGC in control of an increasing share of the Iranian 
economy, including its infrastructure, telecommunications, and oil 
sector, risks of doing business in and with Iran will increase. The 
regime will continue to use its control of the economy not only to 
further enrich itself but also to suppress internal opposition brutally 
and ensconce its rule. The concerns over human rights abuses and regime 
kleptocracy will grow.
    As I have noted in the past, sanctions relief will increase risks 
over time, and Iran's foreign policy will continue to challenge and 
threaten U.S. interests.
    From the U.S. perspective, the blend of IRGC and regime activities 
created the ultimate vulnerability, particularly the blurred lines 
between legitimate industry and support for Iran's nuclear program and 
terrorist groups. Wire transfers to terrorist groups and front 
companies flooding money into the coffers of the Revolutionary Guard 
were actions seen to threaten not only international security but also 
the integrity of the financial system. The nefarious nature of the 
activities, tied with the IRGC's attempts to hide its hand in many of 
its economic dealings and operations, made Iran's financial activity 
inherently suspect. This has not changed.
    As part of past efforts to exclude Iran from the financial system, 
the U.S. Treasury made the argument directly to banks and companies 
around the world that it was too risky to do business with Iran, since 
no one really knew who was lurking behind corporate veils, pulling the 
strings, and accessing bank accounts and funding in Tehran. Would banks 
be willing to risk their reputations by doing business, even 
inadvertently, with the IRGC or the Qods Force? Could their compliance 
officers guarantee that they knew who was behind their Iranian 
customers and transactions? Was trade with Iran worth the risk of 
access to American markets and banks?
    All of this was amplified by parallel national legislation, UNSCRs, 
greater scrutiny from authorities around the world, and enforcement 
actions, led by the United States. The United States created a layered 
sanctions regime, with overlapping Executive Orders, designations, and 
eventually legislation, focused on the key elements of the Iranian 
regime and economy facilitating illicit and dangerous behavior. Each 
U.S. action spurred private sector and allied responses. The effects of 
this suspicion and isolation--driven by the private sector's risk 
calculus and Government actions--had a real world impact.
    Iranian banks, including its central bank, could no longer access 
the international financial system; its shipping lines could not 
traverse ports easily or obtain insurance to operate; and--thanks to 
congressional and international action--its oil sales and revenues were 
suspended. Iran had to create workarounds, evasion schemes, and 
bartering arrangements to continue to do business.
    The Central Bank of Iran (CBI) itself has been designated in part 
because of broader sanctions evasion facilitation on behalf of the 
Iranian banking system. Treasury issued a finding in November 2011, 
under Section 311 of the USA PATRIOT Act that Iran, as well as its 
entire financial sector including the CBI, is a ``jurisdiction of 
primary money laundering concern.'' \10\ Treasury cited Iran's 
``support for terrorism,'' ``pursuit of weapons of mass destruction,'' 
including its financing of nuclear and ballistic missile programs, and 
the use of ``deceptive financial practices to facilitate illicit 
conduct and evade sanctions.'' \11\ The country's entire financial 
system posed ``illicit finance risks for the global financial system.'' 
\12\ Those concerns persist and are not alleviated by the JCPOA or any 
Iranian nuclear commitments or actions.
---------------------------------------------------------------------------
     \10\ U.S. Department of the Treasury, Press Release, ``Finding 
That the Islamic Republic of Iran Is a Jurisdiction of Primary Money 
Laundering Concern'', November 18, 2011 (http://www.treasury.gov/press-
center/press-releases/Documents/Iran311Finding.pdf).
     \11\ Ibid.
     \12\ U.S. Department of the Treasury, Press Release, ``Fact Sheet: 
New Sanctions on Iran'', November 21, 2011 (http://www.treasury.gov/
press-center/press-releases/Pages/tg1367.aspx).
---------------------------------------------------------------------------
    The concerns about the integrity of the Iranian financial system 
are international in nature. The Financial Action Task Force (FATF), 
the global standard setting and assessment body for anti-money 
laundering, counterterrorist financing, and counterproliferation 
financing, has labeled Iran--along with North Korea--``a high risk and 
noncooperative jurisdiction.'' FATF has called on its members to 
``apply effective countermeasures to protect their financial sectors 
from money laundering and financing of terrorism (ML/FT) risks 
emanating from Iran.'' \13\
---------------------------------------------------------------------------
     \13\ The Financial Action Task Force, Public Statement, ``FATF 
Public Statement 19 February 2016'', February 19, 2016 (http://
www.fatf-gafi.org/publications/high-riskandnon-
cooperativejurisdictions/documents/public-statement-february-
2016.html).
---------------------------------------------------------------------------
    As recently as February 19, 2016, FATF issued a statement warning 
that Iran's ``failure to address the risk of terrorist financing'' 
poses a ``serious threat . . . to the integrity of the international 
financial system.'' \14\ The international community recognizes that 
Iran--regardless of the status of its nuclear program--poses a real and 
serious threat to the integrity of the global financial system.
---------------------------------------------------------------------------
     \14\ Ibid.
---------------------------------------------------------------------------
    This financial and economic isolation was premised on the actions 
and nature of the Iranian regime itself. Since the announcement of the 
JCPOA, neither has changed. On the contrary, Iran has demonstrated its 
desire to continue its aggressive activities and support to causes and 
groups directly antithetical to U.S. interests.
    The risks from Iran are real and will increase in an environment of 
sanctions unwinding under the JCPOA for a variety of reasons.
    In the first instance, the unfettered return of funds to the 
Iranian regime will allow Tehran the flexibility to fund its allies and 
proxies and flex its muscles in the region. Regardless of amounts 
available to the regime or percentage used to support terrorist 
proxies, there will be an infusion of terrorist financing into the 
global system. The Administration has acknowledged that some of the 
unfrozen funds will go to support terrorist and militant groups, like 
Hizballah, HAMAS, Iraqi Shi'ite militias, and the Houthis in Yemen. 
This is certainly the expectation of Iran's allies. Iran could even use 
its capital to support the Taleban and al Qaida, with which Iran has 
maintained a relationship and provided support in the past.
    With Iran expanding its reach and presence throughout the Middle 
East, and IRGC commanders and proxies positioned from the Golan to 
Yemen, there will be more concern about Iran's misuse of the economy, 
the benefits of sanctions relief, and the international financial and 
commercial system for dangerous and illicit activities. The infusion of 
cash as a result of sanction relief will relieve budgetary constraints 
for a country that had only an estimated $20 billion in fully 
accessible foreign exchange reserves prior to November 2013 \15\ but 
was spending at least $6 billion annually to support Assad. \16\
---------------------------------------------------------------------------
     \15\ Mark Dubowitz and Rachel Ziemba, ``When Will Iran Run Out of 
Money?'' Foundation for Defense of Democracies and Roubini Global 
Economics, October 2, 2013.
     \16\ Eli Lake, ``Iran Spends Billions To Prop Up Assad'', 
Bloomberg, June 9, 2015 (http://www.bloombergview.com/articles/2015-06-
09/iran-spends-billions-to-prop-up-assad).
---------------------------------------------------------------------------
    The regime itself, and its core institutions like the Ministry of 
Intelligence and the IRGC, will benefit most immediately and deeply. 
Iran is a theocratic regime that controls the key elements of the 
economy. The mullahs have used their control of the economy--through 
bonyads and the Supreme Leader's vast financial network, known as Setad 
or EIKO, and which is worth tens of billions of dollars, to enrich 
themselves and exert more control over the country.
    Despite the notion that the JCPOA resolves all ``nuclear-related'' 
concerns, it does not address real concerns over continued Iranian 
proliferation, to include missile and arms trade. With the allowance 
for an Iranian nuclear program, infrastructure, and research, the deal 
will likely increase (not decrease) the risk of proliferation--with 
potential Iranian trade and exchange with rogue third countries like 
North Korea.
    The dangers, challenges, and risks from Iran on a regional and 
global scale will only increase over time. In the wake of the JCPOA, 
Secretary of State Kerry stated that we will need to ``push back'' 
against Iran's provocative and dangerous policies and tactics. CIA 
Director John Brennan said that the United States will ``keep pressure 
on Iran'' and ``make sure that it is not able to continue to 
destabilize a number of the countries in the region.'' \17\
---------------------------------------------------------------------------
     \17\ ``CIA Director Says U.S. Will Keep Pressure on Iran over 
Nuclear Capabilities No Matter Outcome of Ongoing Talks'', Fox News, 
March 23, 2015 (http://www.foxnews.com/politics/2015/03/23/cia---
director---says---us---will---keep---pressure---on---iran---over---
nuclear---capabilities/).
---------------------------------------------------------------------------
    Indeed, the United States will need to push back, especially 
against increasing risks and threats from Iran. This has been evident 
in the wake of the JCPOA Implementation Day. To do this, the United 
States will want to use its financial and economic tools and strategies 
to make it harder, costlier, and riskier for Iran to threaten the U.S. 
and our allies. This will mean devising and deploying aggressive 
strategies to exclude key elements of the Iranian regime and the IRGC, 
Qods Force, and Ministry of Intelligence from the global financial and 
commercial system.
The Risks of Doing Business in Iran
    On January 16, 2016, the United States, the European Union, the 
United Nations, and other countries unwound a substantial number of 
sanctions on the Islamic Republic of Iran as part of their obligations 
under the JCPOA. Most notably, many EU and UN sanctions, as well as 
many U.S. ``secondary'' sanctions, will no longer remain in force. 
``Primary'' U.S. sanctions programs barring almost all U.S. persons 
from doing Iran-linked business remain. \18\
---------------------------------------------------------------------------
     \18\ Primary sanctions are those that apply directly to (1) the 
activities of U.S. persons (including persons located in the United 
States), (2) non-U.S. persons who cause U.S. persons to violate U.S. 
sanctions regulations, (3) activities taking place within the United 
States, and (4) transfers of U.S.-regulated goods, services, and 
technologies. Secondary sanctions apply to non-U.S. persons where the 
United States lacks jurisdiction to impose primary sanctions. Such 
sanctions often include privileging a company's access to U.S. markets 
on compliance with U.S. sanctions regulations.
---------------------------------------------------------------------------
    In the wake of Implementation Day and with remaining sanctions and 
financial crime concerns, important questions exist regarding what 
doing business in or with Iran now means and how to evaluate and manage 
such risk.
    As Iran attempts to reintegrate into the world economy, many 
challenges remain for companies considering doing business in the 
Islamic Republic, with Iranian counterparties, or supporting customers 
operating in Iran. Dealing with the spectrum of risk--financial crime, 
regulatory, reputational, and policy--in the Islamic Republic will 
require that U.S., European, Asian, Middle Eastern, and other firms 
clearly understand the patchwork of sanctions that will remain in place 
on the country, as well as many of the systemic issues, such as 
corruption, impacting various Iranian business sectors. Companies must 
also factor into their business decisions the risk that sanctions may 
``snap back'' in the medium or long term.
    The risks are amplified by Iran's long history of sanctions 
evasion, illicit finance and corruption, and opaque financial and 
commercial practices. In 2015, Emanuele Ottolenghi produced a report 
\19\ for the Center on Sanctions and Illicit Finance at the Foundation 
for Defense of Democracies detailing the various illicit and suspicious 
methods used by the Iranian regime to operate in the global financial 
and commercial system--including the establishment of sophisticated 
procurement networks and use of gatekeepers to facilitate financing.
---------------------------------------------------------------------------
     \19\ Report available upon request.
---------------------------------------------------------------------------
    This complicated risk environment has dissuaded most legitimate 
companies from reentering and investing in the Iranian economy. While 
Iranian markets may appear attractive, companies considering 
transacting with persons in Iran or doing business in Iran are 
proceeding with caution. The recent parliamentary elections in Iran 
have not altered this analysis or trajectory fundamentally. Companies 
considering doing business in Iran or with Iranian persons must contend 
with at least eight sanctions and financial crimes-related risks:
    1. Primary U.S. Sanctions. Most U.S. primary sanctions, which 
broadly prohibit U.S. persons from conducting transactions in Iran, 
with persons resident in Iran, or with the Government of Iran, will 
remain in force. These U.S. primary sanctions pose significant risks 
for any multinational company considering doing business in Iran. U.S. 
jurisdiction is broad and U.S. regulators can use it to target 
transactions that may not initially appear to touch U.S. markets or 
involve U.S. persons.
    U.S. jurisdiction applies to all U.S. individuals (including U.S. 
citizens and permanent resident aliens, wherever located, as well as 
persons located in the United States) and entities (including any 
entity located or operating in the United States, organized under the 
laws of the United States, as well as foreign branches of U.S. 
entities). Further, the United States may impose penalties (civil or 
criminal) on any foreign person who causes a U.S. person to violate 
sanctions regulations. \20\
---------------------------------------------------------------------------
     \20\ See 50 U.S.C. 1705.
---------------------------------------------------------------------------
    For example, if a Middle Eastern, European, or Asian financial 
institution conducts transactions on behalf of an Iranian company and 
the transaction involves a U.S. bank or a correspondent account located 
in the United States, U.S. regulators will likely have jurisdiction 
over the transaction and can impose penalties on the non-U.S. financial 
institution. Similarly, if a Middle Eastern exporting company with U.S. 
offices relies on those offices for back office functions for 
transactions related to Iran or with an Iranian, the U.S. offices 
providing back office support will be engaged in the prohibited 
exportation of services to Iran (and can be subject to OFAC penalties). 
Where the Middle Eastern entity caused the U.S. offices to provide the 
services without knowledge of the Iranian nexus, U.S. regulators could 
impose fines on that Middle Eastern entity for causing the U.S. offices 
to violate the sanctions.
    Even those U.S. companies taking advantage of the new General 
License H--which permits foreign subsidiaries of U.S. companies to 
engage in certain activities in Iran--will face significant sanctions-
related risks. While these subsidiaries may be allowed to conduct those 
activities, if the U.S. parent company is involved in any Iran-related 
business or transactions, it will likely be exposed to U.S. primary 
sanctions. \21\ Multinational companies must build a firewall between 
U.S. parents and any foreign subsidiary doing business with Iranian 
persons or in Iran, which may be difficult to effectively do in 
practice.
---------------------------------------------------------------------------
     \21\ Note that U.S. parent companies are permitted to establish 
policies and procedures that allow these foreign subsidiaries to 
conduct business in Iran and with Iranian persons, though after the 
initial decision to reengage in Iran-related business and the 
establishment of procedures for doing so, U.S. persons cannot be 
involved in the activities of their foreign subsidiaries relating to 
transactions with Iranian persons or in Iran. Similarly, U.S. companies 
can make their automated computing, accounting, and communications 
systems available for their subsidiaries conducting permitted 
activities in Iran. In effect, this permits foreign subsidiaries doing 
permitted business in Iran to continue to use the same computer systems 
as their parent companies. Note however that provision does not allow 
U.S. parents to otherwise be involved in those activities in any way.
---------------------------------------------------------------------------
    Because the breadth of U.S. jurisdiction is expansive, companies 
based in Europe and Asia must be aware that any engagement with Iran 
may still expose them to remaining U.S. sanctions. Companies, 
particularly ones operating across borders, have to pay careful 
attention to whether they may be subject to U.S. jurisdiction, which 
might pose one of the most pressing regulatory risks that any company 
considering entering Iranian markets will face.
    2. Remaining U.S. Secondary Sanctions. Foreign businesses 
considering doing business in Iran will continue to face the risk of 
violating remaining ``secondary sanctions'' on Iran, which prohibit 
foreign financial institutions and other non-U.S. headquartered 
companies from doing certain business with Iran. While many of the 
secondary sanctions imposed since 2010 have been unwound, \22\ non-U.S. 
persons are still at risk for violating remaining U.S. secondary 
sanctions if they engage in transactions with any one of more than 200 
people and entities listed as Specially Designated Nationals (SDNs) 
including the IRGC and its affiliates.
---------------------------------------------------------------------------
     \22\ Following Implementation Day, non-U.S. entities can now 
conduct certain transactions with:
    The financial and banking industry in Iran, including maintaining 
correspondent accounts for non OFAC-designated Iranian financial 
institutions, the provision of financial messaging services, dealing in 
the rial and in Iranian sovereign debt, and issuing credit cards for 
Iranians;
    Insurance-related activities consistent with the JCPOA, including 
payment of claims to non-U.S. persons;
    The energy industry;
    Shipping, shipbuilding, and port operations;
    Precious and raw/semi-finished metals dealers; and
    The automotive industry, insofar as non-U.S. goods, technology, 
and services are involved.
---------------------------------------------------------------------------
    These restrictions pose additional and significant risks because 
under U.S. law, entities owned or controlled 50 percent or more by 
designated persons--so-called ``shadow SDNs''--are by law also 
considered SDNs. For example, if a foreign financial institution 
processes transactions on behalf of an entity that is owned or 
controlled by the IRGC (whether or not that entity is listed on 
national or international lists of designated parties), it could be 
subject to U.S. secondary sanctions. This creates significant risk for 
financial institutions and other companies wishing to do business in 
Iran, given that the IRGC controls a significant portion of the 
economy. \23\ This risk is further exacerbated by Iranian attempts to 
create a ``gold rush'' psychology in the marketplace and to muddy the 
waters regarding what restrictions may apply to specific transactions. 
We should expect Iranian customers and counterparties to alter 
ownership interests, names of entities, and ownership structures in an 
attempt to hide links to designated parties. This would match past 
practices of sanctions evasion and obfuscation of financial 
transactions in the past.
---------------------------------------------------------------------------
     \23\ Estimates vary on how much of the Iranian economy is 
controlled by the IRGC, with many analysts suggesting the IGRC controls 
as much as 35 percent.
---------------------------------------------------------------------------
    Determining whether a customer, partner, or counterparty is owned 
or controlled by a designated person will be a challenging task, 
further complicated by the fact that the Office of Foreign Assets 
Control (OFAC) at the United States Department of the Treasury has 
provided limited guidance on how companies looking to do business in 
Iran can determine whether they are inadvertently doing business with 
the IRGC. OFAC recommends only that ``a person considering business in 
Iran or with Iranian persons conduct due diligence sufficient to ensure 
that it is not knowingly engaging in transactions with the IRGC or 
other Iranian or Iran-related persons on the SDN List and keep records 
documenting that due diligence.'' Businesses looking to enter the 
Iranian market must make their own determinations about what 
constitutes ``sufficient'' due diligence without more precise guidance 
and while the structure of civil and criminal penalties for sanctions 
violations remains in place.
    Further, non-U.S. persons still need to be aware of remaining U.S. 
export controls. For example, restrictions still apply regarding the 
facilitation of Iranian acquisition or development of weapons of mass 
destruction. In addition, transfers of certain potential dual-use 
materials must be approved via the procurement channel established by 
the JCPOA. U.S. origin goods, technology, and services also are subject 
to the Export Administration Regulations, which retain prohibitions on 
exports and reexports to Iran.
    3. Remaining EU and UN Sanctions. While most EU and UN sanctions on 
Iran have been unwound, a number of important restrictions remain in 
place. \24\ Under EU law, trade restrictions on the sale, export, 
provision, or servicing of goods deemed to be ``internal repression 
equipment,'' or used for ``telecommunications surveillance and 
interception,'' remain in place. Likewise, the EU will continue to 
impose asset freezes and prohibitions on business and trade with 
individuals and entities designated for committing human rights abuses 
and restrictions on the trade of certain items related to nuclear 
proliferation.
---------------------------------------------------------------------------
     \24\ Under EU law, several engagements previously prohibited, 
including associated services, are now allowed so long as they avoid 
dealing with listed Iranian persons:
    Financial, banking, and insurance measures involving Iranian 
entities--including the provision of insurance to Iranian oil and gas 
shipments--are now permitted by EU law and do not require prior 
authorization;
    The import, purchase, swap, and transport crude oil and petroleum 
products, gas, and petrochemical products from Iran, and the export of 
equipment to Iran for use in the energy industry are now permitted;
    Engagements with the Iranian shipping, shipbuilding, and transport 
sectors are no longer restricted;
    Trade with Iran involving gold, other precious metals, banknotes, 
and coinage is now permissible;
    While the sale or transfer of certain graphite and raw/semi-
finished metals to any Iranian entity is no longer prohibited, such 
activity is subject to an authorization regime; and
    While the sale or transfer of Enterprise Resource Planning 
software to any Iranian entity for use in activities consistent with 
the JCPOA is no longer prohibited, such activity is subject to an 
authorization regime.
---------------------------------------------------------------------------
    Like the United States, the EU has also delisted certain entities 
that are thus no longer subject to its asset freeze, prohibition to 
make funds available, and visa ban. However, certain financial 
institutions such as Ansar Bank, Bank Saderat Iran, Bank Saderat PLC, 
and Mehr Bank remain listed by the EU.
    UN Security Council Resolutions that imposed sanctions on Iran for 
its nuclear program were terminated on Implementation Day. Thus, the 
United Nations no longer imposes limits on providing insurance and 
reinsurance products to Iranian entities, and no longer prohibits the 
opening of new Iranian bank branches or subsidiaries outside Iran (nor 
is there a mirrored prohibition on entities from UN member States doing 
the same within Iran). However, a UN arms embargo and UN sanctions on 
Iran's ballistic missile program remain in place. Further, some 
individuals designated by the UN for participating in nuclear and 
ballistic missile programs remain designated. \25\ The recent missile 
tests and Iranian promises for more simply exacerbate the risk that 
additional sanctions will be applied.
---------------------------------------------------------------------------
     \25\ Pursuant to the terms of United Nations Security Council 
Resolution (UNSCR) 2231 (2015) (which endorsed the JCPOA), all prior 
United Nations Security Council Resolutions mandating sanctions on 
Iran--namely, UNSCR 1696 (2006), 1737 (2007), 1747 (2007), 1803 (2008), 
1835 (2008), 1929 (2010), and 2224 (2015)--were formally terminated 
upon receipt of the IAEA's report verifying that Iran has met its 
nuclear-related obligations under the JCPOA. Through UNSCR 2231, the UN 
continues to impose certain restrictions on nuclear, conventional arms, 
and ballistic missile-related activities involving Iran.
---------------------------------------------------------------------------
    4. Likely Additional Sanctions. Businesses interested in entering 
Iran should be aware that additional designations and sanctions are 
likely as the United States Congress continues to focus on illicit 
Iranian behavior and as Iran continues with activities such as 
ballistic missile testing and the provision of support to terrorist 
groups. Congress has explored additional sanctions legislation, in 
particular related to more stringent sanctions tied to the IRGC and its 
ownership and control interests. Though the Administration will resist 
actions that appear to reimpose lifted sanctions, both the House of 
Representatives and the Senate appear interested in pursuing 
legislation that directly or indirectly impacts Iran, including the 
recent legislation imposing additional sanctions on Hizballah.
    The Administration has wanted to demonstrate its willingness to 
sanction non-nuclear Iranian behavior, both to stave off additional 
congressional action and address Iranian threats to U.S. interests. It 
has not wanted, however, to impose sanctions or financial measures that 
would allow Iran to claim that the United States had violated the terms 
of the JCPOA. Since Implementation Day, the Treasury Department has 
twice used ballistic missile-related designations--in January 2016, 
designating 11 entities and individuals involved in procurement on 
behalf of Iran's ballistic missile program, and then again in March 
2016, designating additional parties tied to the missile program. 
Companies are aware that additional Iranian individuals, companies, and 
related networks could be designated, effectively requiring an end to 
any financial or commercial relationship.
    This risk increases as Iran engages in activities that spur 
additional U.S. and possibly EU sanctions. In addition to its support 
to terrorist groups and the Assad regime, its ballistic missile 
program, and human rights abuses, there are other risks attendant to 
doing business with Iran. Iran's link with North Korea, and in 
particular its cooperation on proliferation and ballistic missile-
related issues, increases the likelihood that the United States and the 
European Union will impose additional sanctions on the Islamic 
Republic. For example, in late January, France requested the European 
Union consider imposing additional sanctions on Iran for its continued 
ballistic missiles activities.
    5. Iran's Potential Cheating on the JCPOA. If the United States or 
other members of the P5+1 conclude that Iran is cheating on its 
obligations under the JCPOA, they can snap back many of the sanctions 
into place. In the context of any potential snapback, OFAC has made 
clear that there will be no ``grandfather'' clause for pending 
transactions, meaning foreign companies doing business in Iran would 
need to very quickly wind down their operations, potentially at a 
significant loss. While the Obama administration will be unlikely to 
push for a comprehensive snapback of sanctions unless there is a 
serious, material breach of the JCPOA, Treasury Department officials 
have made it clear that they have developed more limited snap back 
mechanisms in the case that Iran pushes the envelope and engages in 
activities that violate its obligations. Similarly, depending on the 
outcome of the U.S. presidential election in November 2016, candidates 
have expressed a desire to reimpose sanctions on Iran. Such action 
could pose serious risks for foreign companies doing business in the 
Islamic Republic.
    6. Sanctions Violations Enforcement Posture. The United States 
Department of the Treasury has indicated it will continue to 
aggressively enforce regulations remaining in place. For example, 
acting Under Secretary of the Treasury for Terrorism and Financial 
Intelligence Adam Szubin noted, following Implementation Day, that 
``[w]e have consistently made clear that the United States will 
vigorously press sanctions against Iranian activities outside of the 
Joint Comprehensive Plan of Action--including those related to Iran's 
support for terrorism, regional destabilization, human rights abuses, 
and ballistic missile program.'' Indeed, the day after JCPOA 
Implementation Day, the U.S. Government imposed sanctions on entities 
and individuals in the Middle East and Asia for supporting Iran's 
ballistic missile program. These types of sanctions will be used to 
help demonstrate to Iran and U.S. allies that Washington remains 
prepared to use economic measures to enforce existing sanctions. In 
addition, Iran's history of using a variety of financial and commercial 
measures to hide its hand to evade sanctions and the scrutiny of the 
international community adds additional risk that sanctions may be 
applied.
    7. Regulatory Risk From Multiple Enforcement Agencies. From a 
regulatory and enforcement perspective, it is important to note that 
the Treasury Department and OFAC are not the only arbiters of sanctions 
violations and requirements. The United States Department of Justice, 
the Securities and Exchange Commission, State prosecutors, and various 
New York authorities, such as the Department of Financial Services, 
will all play a significant role in how existing sanctions regulations 
and related laws are enforced. Local authorities may elect to take a 
more aggressive enforcement posture with respect to sanctions 
violations, which would fall outside of the Federal Government's 
control. Any company considering doing business in Iran or with Iranian 
individuals or entities will need to pay close attention to the 
regulatory and enforcement postures taken by these other Government 
agencies.
    8. Financial Crimes Risks in Iran. Though the recent business 
attention on Iran has understandably focused on sanctions-related 
issues, banks and businesses must remember that other financial crimes 
concerns in the Islamic Republic remain pervasive. In particular, the 
nature of the Iranian economy and the role of the Government within the 
economy present serious risks related to bribery and corruption, money 
laundering, and illicit financing. Iran ranked 130 of 175 countries in 
Transparency International's Corruption Perceptions Index as of 2015.
    In 2011, the U.S. identified Iran as a jurisdiction of primary 
money laundering concern pursuant to Section 311 of the USA PATRIOT 
Act. The FATF first raised concerns over Iran's lack of a comprehensive 
anti-money laundering/countering the financing of terrorism (AML/CFT) 
framework in 2007, and it still urges Iran to meaningfully address AML/
CFT deficiencies and will consider urging stronger countermeasures 
later this year. OFAC also has made it clear that activity inconsistent 
with a wide range of Executive Orders imposing sanctions on Iran 
(including for providing support to terrorism, undermining the 
stability of Yemen, and other behaviors) could still subject U.S. and 
non-U.S. persons to sanctions. Now, the Iranian Government has 
indicated that it will begin to target ``financial corruption,'' and 
has sentenced Iranian billionaire Babak Zanjani, who helped the regime 
evade oil-related sanctions, and two others to death for corruption. 
Attention on the issue of corruption will now grow, as Iran attempts to 
do business with the world. Any companies looking to do business in 
Iran must be acutely aware of serious financial integrity risks beyond 
those posed by remaining sanctions.
    As some of the sanctions on Iran are unwound, many European, Asian, 
and Middle Eastern companies understandably want to reengage in the 
Iranian economy. The risk appetites of companies will likely vary by 
sector, with large oil, aerospace, auto, infrastructure, and equipment 
companies likely more willing to enter Iranian markets more quickly and 
with a higher tolerance for risk. For example, Airbus has already 
agreed to sell Iran 114 airplanes, and Boeing has obtained a license 
from OFAC to begin commercial discussions with Iranian airlines.
    In contrast, other sectors will have a more conservative risk 
approach. Shipping insurers have already recommended a greater degree 
of caution. For example, the London Protection and Indemnity Club, a 
member of the International Group of Protection and Indemnity Clubs, 
the main association of global tanker insurers, has recommended 
shipping insurers not enter contracts or fixtures involving previously 
sanctioned Iranian trade or entities without performing extensive due 
diligence. Similarly, financial institutions will be more reluctant to 
reenter Iranian markets, given recent enforcement actions targeting 
their activities and the stricter financial crime compliance 
environment globally.
    A significant challenge will be how financial institutions wary of 
the risks of doing business in Iran respond to pressure from clients 
with greater risk appetites to provide financial services for 
activities in Iran. Iran has already complained that European banks 
have remained reluctant to engage in commercial activity with Iran, and 
is now asking the IMF to help assuage such concerns with a report 
slated for release in 2018. Additional pressure and statements from 
Iranian leadership, including the Iranian Central Bank Governor, are 
echoing the charge that the United States is not fulfilling its 
obligations under the ``spirit and letter'' of the nuclear deal. The 
Iranian charge is that the U.S. sanctions and narrative of Iranian risk 
are still scaring away investment and financial dealings.
    The desire in and from Tehran to see the fruits of the nuclear 
negotiations, especially with more banking activity with the West, will 
add pressure to those institutions that remain cautious. For example, 
some financial institutions, including at least one major Japanese 
bank, have begun processing nondollarized transactions for clients 
operating in the Islamic Republic. Others have begun to flirt with the 
Iranian market, with South Korean commercial bank, Woori Bank, 
indicating it wants to turn its Tehran presence into a branch office, 
and Austrian Raiffeisen Bank International (RBI) signing a memorandum 
of understanding with Iran's Department of Environment. Importantly, it 
appears that the Iranians realize that in order to do business 
legitimately with the West, they must meet the standards demanded in 
the Western banking world for transparency and accountability. But the 
Iranians are intent to force the United States and Europe to resolve 
this issue for them and to mark this as an essential part of JCPOA 
implementation.
Keeping the Burden of Persuasion and Reform on Iran
    In implementing the deal, the United States should not fall into 
the trap of helping Iran rehabilitate itself. Throughout this deal, the 
onus should remain solely on Iran to alleviate concerns about its 
activities, lack of transparency, and failure to meet heightened global 
standards of financial integrity in the banking and commercial worlds. 
Iran should not get a free pass on the reforms, modernization, and 
accountability necessary for acceptance as a legitimate actor in the 
world--diplomatically and economically. This posture should force the 
Iranians to turn inward to determine how they can meet international 
expectations, instead of trying to compel the United States and Europe 
to alter their standards or dictate to the private sector where and 
with whom they should do business.
    Unfortunately in the desire to appear to be complying with the 
deal, some U.S. actions have created the impression that the United 
States and European Governments have assumed the burden of 
reintegration of the Iranian economy into the global system. There are 
some examples worth noting:
    1. There have been reports that the United States might offer Iran 
the ability to access offshore dollar-clearing facilities, to allow for 
dollar-denominated transactions and ease Iran's ability to trade 
internationally. Though such a maneuver would not allow Iran direct 
access to dollar clearing in the United States, it could be structured 
in a manner to create the same effect. Iranian trade would then be 
facilitated in a way not contemplated in the JCPOA. The United States 
should not be offering special exemptions or measures to assist Iran 
with access to dollars while Iran remains a leading State sponsor of 
terror, subject to serious sanctions, and designated as a ``primary 
money laundering concern.''
    In addition, if the United States were to provide Iran with access 
to U.S. dollars for offshore transactions, then the United States would 
lose the ability to threaten this access in response to a range of 
Iranian provocations in the future. In effect, by couching access to 
the Western financial system and the U.S. dollar as part of the nuclear 
deal, the United States would no longer be able to cut Iran off from 
this benefit if it significantly increased its support for terrorism, 
as Iran would claim that such an attempt at coercion would violate the 
letter of the nuclear agreement. This would further give away coercive 
financial leverage without any bargained-for concession by Iran. Iran's 
underlying conduct outside of the nuclear issue was not on the table 
during negotiations. The United States and the international community 
should not open the door to broad benefits of relief from financial 
exclusion that the Iranians neither negotiated nor deserve.
    2. The U.S. Government has been sending delegations around the 
globe to clarify existing sanctions and obligations and apparently to 
explain how business may be undertaken with the Iranian regime. Though 
regulatory clarity is important, the United States should not be 
launching road shows attempting to dampen concerns about the risks of 
doing business in or with Iran, especially when those risks are 
increasing. The burden instead should fall on Iran to demonstrate to 
Governments, the private sector, and the markets that its activities, 
policies, and use of its financial and commercial system are 
legitimate, transparent, and meet international standards. Iran should 
be concentrating on necessary reforms, hard policy decisions, and its 
own road shows to prove that it can be trusted as a responsible 
international player. Until then, Iran will be seen as a risky 
jurisdiction in which to invest and do business. It should not be the 
responsibility of the United States or Europe to prod businesses and 
banks to enter the Iranian market.
    3. The United States has announced that it plans to buy heavy water 
from the Iranian nuclear system, thus enabling Iran to produce more 
heavy water than it needs and facilitating the economic uses of a 
nuclear program built in violation of previous international sanctions. 
This also legitimates Iran's nuclear program in a way that is not 
obligated in the JCPOA and promotes Iran's expanded nuclear program. 
Aside from not encouraging and promoting the Iranian nuclear program 
beyond what is required in the JCPOA, the United States should not be 
serving as Iran's market safety valve for the sale of heavy water, 
displacing existing supplies to the United States from legitimate 
suppliers like Canada and Argentina. As with any Iranian economic 
activity, Iran should be forced to deal with the international markets 
on its own, meeting relevant market and regulatory demands directly. 
The United States should not usher Iran into the global economy 
artificially, especially not in the nuclear markets, and allow Iran 
benefits that were not negotiated in the JCPOA and for which the 
international community has not received consideration.
    4. It has been important that the U.S. Treasury and other U.S. 
Government officials have reiterated the commitment to enforcing 
existing sanctions vigorously and maintaining the ability to use the 
tools of financial coercion to affect Iranian behavior. These 
commitments, however, are undercut when the United States modifies its 
messaging to suggest that our sanctions regime should not constrain or 
affect the risk calculus of the private sector. Though intended to 
demonstrate that the United States is upholding its end of the JCPOA 
bargain, softened language appears to suggest that the United States is 
already backing away from its willingness to use existing sanctions 
against Iran. Recently, Secretary Kerry met with European banks and 
noted that European businesses should not use the United States as an 
excuse not to invest in Iran. European businesses should be encouraged 
to listen to and account for U.S. regulatory, enforcement, and policy 
concerns--not ignore longstanding and legitimate concerns.
    The United States cannot alter this commitment to enforce 
sanctions, weaken its call for heightened global standards for 
financial integrity, or jump every time Iran complains about its 
inability to access the global financial system. The United States 
cannot mute itself or its willingness to use some of our most effective 
financial and economic tools against dangerous Iranian activity. 
Unfortunately, the United States has quieted its voice too often in the 
face of Iranian aggression and violations in the hopes of a nuclear 
deal--from the deafening silence as the Green Movement was crushed 
brutally to current vacillation on whether recent ballistic missile 
tests violate the letter and spirit of the JCPOA and the related UN 
Security Council Resolution 2231.
    The United States cannot be in the position of rehabilitating the 
Iranian economy and image. This proves highly problematic and 
undermines U.S. credibility and power internationally if this is done 
without concern for the underlying issues and conduct that drove its 
isolation in the first place--proliferation, support for terrorism, 
human rights violations, and development of weaponry and programs of 
concern controlled by the IRGC. It is the threat to the international 
financial system of the illicit and suspect flows of money that is the 
baseline for Iran's isolation. Iran should be forced to deal with these 
risks directly.
The Strategic Use of Sanctions Moving Forward and Targeted Unwinding
    The United States should treat the JCPOA and its implementation as 
an ongoing process, where sanctions and sanctions unwinding form a 
strategic part of U.S. and international efforts to enforce the deal, 
maintain economic and financial leverage, push back on dangerous 
Iranian activity, and force the Iranians to make hard decisions about 
their role in the world. Sanctions and financial measures in this 
regard are not just tools that were used to get Iran to the table, but 
are essential levers of influence moving forward. Indeed, how sanctions 
are deployed and unwound could affect the internal dynamics of Iran in 
furtherance of U.S. and allied interests.
    In the first instance, the United States should not shy away from 
the use of sanctions against Iranian behavior and underlying conduct 
that is already subject to sanctions. The U.S. Government has the 
authority and ability to apply sanctions for the full suite of 
nefarious Iranian behavior--to include human rights violations and 
malicious cyber activity. This includes enforcement of existing 
sanctions and application of new measures to constrain Iranian behavior 
and discipline the international system. The United States retains the 
power and credibility to do this. The effects of U.S. actions are 
global and set the international norms for acceptable behavior. Absent 
U.S. action, attention, and enforcement, Iranian provocations will 
likely not be met with credible international push-back. If U.S. 
financial and economic measures are based on facts and can be explained 
credibly as furthering U.S. legal requirements and international norms, 
the impact will remain global and the effect real.
    In addition, the United States should not diminish its ability to 
use targeted unwinding tools to force Iran to make hard choices about 
its behavior in the international system. If implementation of the 
JCPOA is viewed as an ongoing and long-term process, then the United 
States should be thinking creatively about how to use these targeted 
unwinding measures to effectuate its strategic goals.
    The JCPOA attempts to unwind sanctions tied to the nuclear file, 
but the unwinding is difficult and complicated given the interconnected 
nature and effects of such sanctions. In some instances, the unwinding 
can be managed. In many other cases, the unwinding schedule and some of 
the scheduled delistings implicate actors and activities beyond the 
nuclear file, complicating our ability to easily unwind sanctions and 
threatening our ability to impose coercive leverage in the case of 
Iranian malfeasance beyond the nuclear file. The delisting of some key 
Iranian entities that have facilitated a range of Iranian illicit 
activities and the cessation of sanctions prohibitions against them, 
especially terrorism financing, raises serious challenges to U.S. 
ability to affect Iranian behavior of concern.
    There is no question trying to unwind any effective and global 
sanctions regime is difficult. Unwinding intertwined, conduct-based 
sanctions for a regime that uses its economy for various dangerous and 
nefarious activities of international security concern is incredibly 
challenging. But tearing down sanctions bluntly--particularly when 
pulling down the nuclear sanctions also threatens to pull down U.S. 
leverage related to issues of missile proliferation and terrorism--
without addressing that underlying and related conduct creates real 
risks and does damage to the ability to use the very same tools against 
Iranian individuals and entities in the future.
    In light of the risks of doing business with Iran, the 
reintegration of Iranian banks into the global financial system, 
including via the SWIFT bank messaging system, presents perhaps the 
most concerning issue. For example, Bank Sepah was designated under 
U.S. authorities not simply because of its facilitation of the Iranian 
nuclear program and procurement but also its role in financing arms and 
missile deals, activities that should remain a concern and are subject 
to UN sanctions.
    The JCPOA explicitly called for the lifting of sanctions on 
``[s]upply of specialized financial messaging services, including 
SWIFT, for persons and entities . . . including the Central Bank of 
Iran and Iranian financial institutions.'' \26\ The European Union 
lifted SWIFT-related sanctions for the Central Bank of Iran and all 
Iranian banks \27\ originally banned from SWIFT. \28\
---------------------------------------------------------------------------
     \26\ ``Joint Comprehensive Plan of Action'', Vienna, July 14, 
2015, paragraph 19(iv) (http://eeas.europa.eu/statements-eeas/docs/
iran_agreement/iran_joint-comprehensive-plan-of-action_en.pdf).
     \27\ On Implementation Day, the EU lifted sanctions on the Central 
Bank of Iran and Bank Mellat, Bank Melli, Bank Refah, Bank Tejarat, 
Europaische-Iranische Handelsbank (EIH), Export Development Bank of 
Iran, Future Bank, Onerbank ZAO, Post Bank, and Sina Bank. Separately, 
the EU also lifted sanctions on Bank Sepah and Bank Sepah 
International. On Transition Day, the EU will also lift sanctions on 
Ansar Bank, Bank Saderat, and Mehr Bank. See Attachment 1, parts 1 and 
2 and Attachment 2, parts 1 and 2 (http://eeas.europa.eu/statements-
eeas/docs/iran_agreement/annex_1_attachements_en.pdf.)
     \28\ The Council of the European Union, ``Council Regulation (EU) 
No. 267/2012 of 23 March 2012 Concerning Restrictive Measures Against 
Iran and Repealing Regulation (EU) No. 961/2010'', Official Journal of 
the European Union, March 24, 2012 (http://eur-lex.europa.eu/legal-
content/EN/TXT/?qid=1406807228342&uri=CELEX:32012R0267).
---------------------------------------------------------------------------
    By allowing most of the Iranian banks back into the international 
financial order without dealing with their underlying conduct or 
controls, the United States and the international community assumed the 
good faith of the Iranian regime. This has heightened the risk that the 
Iranian banking system would be used by the regime to finance and 
facilitate other issues of significant national security concern.
    Instead, we should consider a process of targeted unwinding that 
meets our strategic goals--and could even provide Iran relief if it is 
willing to abide by international rules and norms regarding 
transparency and accountability of its financial system. For Iranian 
banks, this would mean a stricter, monitored reentry into the financial 
system, given continued concerns about their facilitation of illicit 
and dangerous activities by the regime. This could be effectuated 
through a program--led by the European Union--to create a monitoring 
system through SWIFT (akin to the Terrorist Financing Tracking Program) 
to monitor all Iranian cross-border transactions and allow for the 
tracking and analysis of suspect Iranian banking activities. Instead of 
the blunt unwinding measure of plugging all Iranian banks (minus a few) 
back into the global banking messaging system, an aggressive monitoring 
program could provide a ``halfway'' house for reintegration of Iranian 
banks over time while managing the risk of more Iranian money 
traversing the banking system.
    This type of system might actually force the Iranian regime to make 
some hard choices about not using its banks to facilitate illicit or 
dangerous activities that would be subject to monitoring and exposure. 
A system of targeted unwinding could advance the strategic goal that 
Iran not misuse its economy and financial system to benefit terrorists, 
proxies, and accelerate its nefarious international ambitions and 
capabilities. If such a system could prove effective, it might spur 
responsible reform within Iran as it tries to reintegrate into the 
global system. This in turn would give global banks and businesses some 
assurance that the Iranian banking system is maturing and under some 
degree of scrutiny. Scrutiny over such financial activity and reforms 
could help alleviate concerns by legitimate banks that they are being 
exposed to dangerous risk, especially if legitimate and trusted 
Government agencies (like financial intelligence units) are involved in 
the monitoring. This, in turn, could blunt Iranian claims that the 
United States was de facto continuing the imposition of sanctions by 
scaring Western banks away from doing business in Iran or with 
businesses interested in doing business in Iran.
    The current tension with Iran over the unwinding of sanctions 
underscores that the implementation of the JCPOA and ``negotiations'' 
with Iran will be ongoing. In this regard, we should take full 
advantage of the leverage we have and devise new mechanisms to ensure 
we meet our strategic goals. We should be reinforcing this power and 
capability, not undermining it.
Faulty Assumptions
    The current state of sanctions unwinding reveals certain 
misconceptions about the state of play regarding the JCPOA and the 
position of the United States to strike a better bargain. There are 
many assumptions articulated at the time that need to be questioned, 
and there are a few that are clearly incorrect. It is important that 
this be clarified as the JCPOA unfolds and expectations and precedents 
are formed.
    At the time of the negotiations, the financial and economic 
pressure campaign was not faltering, and the U.S. was not at risk of 
losing its ability to squeeze and influence Iran in the short term.
    The regime and the economy were affected by cascading isolation and 
falling oil prices. During the period of the negotiations, the pressure 
was increasing--belying the notion that the United States was facing a 
cracking sanctions coalition and system. Quite the opposite was 
occurring. The ayatollahs' concern over the strangulation of the 
Iranian economy--in concert with lingering fears of the ghosts of the 
Green Movement--is ultimately what brought them to the negotiating 
table and launched them on the charm offensive that allowed them to 
turn the tables on the West. The sanctions pressure was not sustainable 
for the regime. President Rouhani admitted that these measures 
threatened to drive Iran into an economic ``Stone Age.''
    The regime needs access to capital, new technologies, and 
connectivity to the oil markets and the global economy to maintain and 
sustain itself. That is what it lost over the past decade. It is what 
the Iranians negotiated to regain in the JCPOA. This is now the source 
of Iran's most significant complaint.
    There was also never a neat divide between ``nuclear'' and ``non-
nuclear'' sanctions when the constriction campaign launched in 2005. 
This campaign was intended to use the illicit, dangerous, and 
illegitimate nature of Iranian activity as the driver for unplugging 
Iran from the global financial and commercial system. This is something 
I tried to articulate in my testimonies before the Senate last year. 
The sanctions were focused on the fact that the Iranians were 
leveraging their own economy to profit the regime and allow the 
construction of a suspect nuclear infrastructure and ballistic 
missiles, support terrorists and militias, strengthen Assad in Syria, 
engage in financial obfuscation, and perpetrate massive human rights 
abuses. Other than the nuclear issues, the underlying conduct was not 
on the table during the JCPOA negotiations. Without resolution of those 
issues, the triggers for financial isolation remain. Thus, we are 
witnessing the difficulty of unwinding sanctions that have been 
triggered by underlying Iranian conduct that has yet to change.
    Moreover, the JCPOA has not resulted in the diplomatic unity 
promised or rewards for good behavior. Russia has quickly made its own 
deals and pacts with Iran--expanding coordination and cooperation in 
Syria and Iraq and signing deals for weapons systems. The United States 
has been forced to assuage skeptical allies in the Gulf and Israel and 
mend diplomatic wounds. European countries are engaging at different 
levels and pace with Iran, sending mixed messages about what is 
expected by the international community. With the varied sanctions 
regimes, American companies are disadvantaged by the commercial opening 
provided to European companies. Legitimate companies concerned about 
real and reputational risks sit on the sidelines while less responsible 
actors dive into the Iranian market. Our closest allies are worried, 
and the responsible actors are losing market opportunities.
    Finally, it is not clear that the JCPOA has opened a channel 
through which Iran can constructively engage with the international 
community and address the other serious concerns about its dangerous 
policies and behavior. On the contrary, Iran appears intent and willing 
to exacerbate those risks and tensions across the board. The JCPOA may 
have emboldened the regime to take more aggressive steps, exacerbating 
concerns among U.S. allies that Iran is being given free rein to expand 
its influence and threaten their interests. Just as important, the 
United States seems not to have a plan as to how to use the JCPOA 
implementation to drive broader strategic goals of constraining Iranian 
adventurism and sparking internal reforms.
    The Iranians need to decide that they are willing and able to 
address those issues of concern and change their behavior--to include 
issues of financial transparency, terrorist financing, and corruption. 
The Iranians must find tangible ways to demonstrate that necessary 
reforms are possible before they can expect to be treated as legitimate 
actors in the financial and commercial systems. This is the source of 
their isolation.
Conclusion
    In the short term, the aversion to the risks of doing business in 
and with Iran will continue, especially if Iran continues to 
demonstrate an unwillingness to stop its provocative and dangerous 
activity. More importantly, Iran will not be in a position to join the 
international community completely, if it does not demonstrate clearly 
that it can engage as a trusted and transparent actor in the financial 
system. The onus to prove this should be on Iran's shoulders. Any 
complaints about lack of access to capital, markets, or investment 
should be posed to the clerical regime. Iran has to decide whether it 
will abide by international standards, norms, and obligations. Absent 
this, it will remain a risky environment in which to do business, no 
matter how attractive the opportunities.
    The United States must be willing to use its financial and economic 
toolkit to constrain dangerous Iranian behavior and encourage 
responsible Iranian activity. This means forcing Iran to deal with the 
demands of the international market place on its own and addressing the 
underlying conduct that has proven problematic and risky. The United 
States must continue to isolate rogue Iranian activity--and that of its 
proxies--through the use of sanctions and financial measures that 
exclude such actors from the global financial and commercial system. 
The United States cannot abandon its use of these tools, especially as 
the JCPOA unfolds and Iran continues to test the bounds of U.S. will. 
The United States will need to rely on sanctions and financial measures 
even more in the future, and we should be doing everything we can to 
reinforce the strength and endurance of these powers--against Iran and 
other rogue actors in the international system.
                                 ______
                                 
                  PREPARED STATEMENT OF MARK DUBOWITZ
 Executive Director, Foundation for Defense of Democracies' Center on 
                     Sanctions and Illicit Finance
                              May 24, 2016
                              
                              
                              
                              
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
                           
                             
                             
                          
                             
                  PREPARED STATEMENT OF MICHAEL ELLEMAN
      Consulting Senior Fellow for Regional Security Cooperation, 
        International Institute for Strategic Studies--Americas
                              May 24, 2016
    Chairman Shelby, Ranking Member Brown, distinguished Members of the 
Committee, I am pleased to testify before you today about Iran's 
Ballistic Missile Program and the role of sanctions under the Iran 
Deal.
    My statement is informed by two decades of work as a missile 
scientist at Lockheed Martin's R&D laboratory, and more than 25 years 
observing and writing about ballistic-missile proliferation. I have 
participated in technical exchanges and visited missile production and 
testing facilities in at least seven countries, and have worked 
missile-related issues with technical experts from throughout the 
world. Over the past decade I have interviewed, formally and 
informally, Russian and Ukrainian missile experts who have worked in 
Iran and witnessed first-hand the status of its missile program and its 
indigenous capabilities. In 2010, I authored a dossier by the 
International Institute for Strategic Studies on Iran's Ballistic 
Missile Capabilities, which was a collaborative study supported by 
missile specialists from Russia, Germany, France, Israel, and the U.S. 
I continue to monitor missile developments around the world.
    My statement today reflects my views and not necessarily those of 
any organization to which I consult.
Iran's Ballistic Missile Doctrine and Capabilities
    Ballistic missiles are central to Iran's deterrence posture and 
will remain so for the foreseeable future. The priority assigned to 
ballistic missiles is reflected by the size and scope of Iran's 
arsenal, the largest and most diverse in the region. Given this 
importance, Iran will not surrender its current systems, except, 
possibly, under the direst of circumstances. Even if Iran acquires 
advanced military aircraft in the near future, ballistic missiles will 
continue to play a prominent role in its force structure.
    Iran's pursuit of ballistic missiles predates the Islamic 
revolution. Ironically, the shah teamed with Israel to develop a short-
range system after Washington denied his request for Lance missiles. 
Known as Project Flower, Iran supplied the funds and Israel provided 
the technology. The monarchy also pursued nuclear technologies, 
suggesting an interest in a delivery system for nuclear weapons. Both 
programs collapsed after the revolution.
    Under the shah, Iran had the largest air force in the Gulf, 
including more than 400 combat aircraft. But Iran's deep-strike 
capability degraded rapidly after the Islamic Revolution and the break 
in ties with the West limited access to spare parts, maintenance, pilot 
training and advanced armaments. Consequently, Tehran turned to 
missiles to deal with an immediate war-time need after Iraq's 1980 
invasion, and the subsequent air and missile attacks on Iranian cities. 
Iran acquired Soviet-made Scud-Bs, first from Libya, then from Syria 
and North Korea. It used these 300-km missiles against Iraq from 1985 
until the war ended in 1988.
    In Tehran's view, ballistic missiles played a critical role in 
responding to Iraqi missile attacks, and deterring future ones. The 
Iranian regime also witnessed how quickly the U.S-led coalition 
devastated the Iraqi army in 1991, the same army Iran battled to a 
standstill during an 8-year war. The only notable response from Iraq 
during Operation Desert Storm came in the form of ballistic-missile 
attacks against Israel, Saudi Arabia, and other Gulf countries. The 
diversion of coalition aircraft to the ``Scud-hunting'' mission, and 
away from the assault on Iraqi troops and equipment, further informed 
Tehran's thinking.
    Throughout the 1990s and beyond, Tehran steadily expanded its 
missile arsenal. It invested heavily in its own industries and 
infrastructure to lessen dependence on unreliable foreign sources, and 
is now able to produce its own missiles, although some key components 
still need to be imported. Iran has demonstrated that it can also 
significantly expand the range of acquired missiles, as it has done 
with Nodong missiles acquired from North Korea. Iran's missiles can 
already hit any part of the Middle East, including Israel. Tehran has 
established the capacity to create new missiles to address a most of 
its strategic objectives.
Iran's Arsenal
    The Islamic Republic's arsenal now includes several types of short-
range and medium-range missiles. Estimates vary on specifics, and Iran 
has exaggerated its capabilities in the past. There is widespread 
consensus that Tehran has acquired and creatively adapted foreign 
technology to continuously increase the quality and quantity of its 
arsenal. It has also launched an ambitious space program that works on 
some of the same technology. The arsenal includes:
    Shahab missiles: Since the late 1980s, Iran has purchased 
additional short- and medium-range missiles from foreign suppliers and 
adapted them to its strategic needs. The Shahabs, Persian for 
``meteors,'' were long the core of Iran's program. They use liquid 
fuel, which involves a time-consuming launch. They include:
    The Shahab-1 is based on the Scud-B. (The Scud series was 
originally developed by the Soviet Union). It has a range of about 300 
km or 185 miles, and carries a one-ton warhead.
    The Shahab-2 is based on the Scud-C. It has a range of about 500 
km, or 310 miles, but with a 720-kg warhead. In mid-2010, Iran is 
widely estimated to have between 200 and 300 Shahab-1 and Shahab-2 
missiles capable of reaching targets across the Gulf. Iran began 
modifying its Shahab-2s in 2010 to create the Qiam missile. The Qiam 
can fly roughly 600 km and has a detachable warhead, making it more 
difficult to detect and track using missile-defense radars.
    The Shahab-3 is based on the Nodong, which is a North Korean 
missile. It has a range of about 900 km or 560 miles. It has a nominal 
payload of 1,000 kg. A modified version of the Shahab-3, renamed the 
Ghadr-1, began flight tests in 2004. It theoretically extends Iran's 
reach to about 1,600 km or 1,000 miles, which qualifies as a medium-
range missile. It carries a smaller, 750-kg warhead.
    Although the Ghadr-1 was built with key North Korean components, 
Defense Minister Ali Shamkhani boasted at the time it first appeared, 
``Today, by relying on our defense industry capabilities, we have been 
able to increase our deterrent capacity against the military expansion 
of our enemies.''
    A modified version of the Ghadr-1 missile, known as Emad, was 
tested in October 2015. Emad has four fins mounted at the base of the 
detachable warhead. In principle, the fins can steer the warhead toward 
the target as it descends through the atmosphere. In practice, however, 
full development of the Emad will take a decade or more, and scores of 
flight tests. The Emad's appearance indicates that Iran seeks to 
improve the accuracy of its missiles, a priority that supersedes the 
need to develop longer-range missiles. Iran has repeatedly said that it 
does not need missiles with a range of greater than 2,000 km, or 1,200 
miles.
    Sajjil means ``baked clay'' in Persian. The Sajjil-2s are medium-
range missiles that use solid fuel, which offers many strategic 
advantages. They are less vulnerable to preemption because the launch 
requires shorter preparation--minutes rather than hours. Iran is the 
only country to have developed missiles of this range without first 
having developed nuclear weapons.
    The Sajjil-2 is domestically produced. It has a range of about 
2,000 km or 1,200 miles when carrying a 750-kg warhead. It was test 
fired in 2008 under the name, Sajjil. The Sajjil-2, which is probably a 
slightly modified version, began test flights in 2009. This missile 
would allow Iran to ``target any place that threatens Iran,'' according 
to Brig. Gen. Abdollah Araghi, a Revolutionary Guard commander.
    The Sajjil-2 appears to have encountered technical issues and has 
not been fully developed. No flight tests have been conducted since 
2011. If Sajjil-2 flight testing resumes, the missile's performance and 
reliability could be proven within a year or two. The missile, which is 
unlikely to become operational before 2017, is the most probable 
nuclear delivery vehicle--if Iran decides to develop an atomic bomb.
    Space program: Iran's ambitious space program provides engineers 
with critical experience developing powerful booster rockets and other 
skills that could be used in developing longer-range missiles, 
including ICBMs.
    The Safir, which means ``messenger'' or ``ambassador'' in Persian, 
is the name of the carrier rocket that launched Iran's first satellite 
into space in 2009. It demonstrated a new sophistication in multistage 
separation and propulsion systems.
    The Simorgh, which is the Persian name of a benevolent, mythical 
flying creature, is another carrier rocket to launch satellites. A 
mock-up was unveiled in 2010. The Simorgh may have been flight tested 
in April 2016, though it either failed, or only the first stage was 
launched. The first stage is powered by a cluster of four-Nodong 
engines.
Military and Strategic Utility of Iran's Missiles
    Iran's ballistic missiles have poor accuracy. The successful 
destruction of a single fixed military target, for example, would 
probably require Iran to use a significant percentage of its missile 
inventory. Against large military targets, such as an airfield or 
seaport, Iran could conduct harassment attacks aimed at disrupting 
operations or damaging fuel-storage depots. However, the missiles would 
probably be unable to shut down critical military activities. Missile 
defenses would further degrade the military utility of Iran's missiles.
    Without a nuclear warhead, Iran's ballistic missiles are likely to 
be more effective as a political tool to intimidate or terrorize an 
adversary's urban areas, increasing pressure for resolution or 
concessions. Such attacks might trigger fear, but the casualties would 
probably be low--likely less than a few hundred, even if Iran unleashed 
its entire ballistic missile arsenal and a majority succeeded in 
penetrating missile defenses.
    The technology adopted for use on the new Emad indicates that Iran 
hopes to improve the precision of its larger missiles. Substantial 
improvements in missile accuracy will take years, if not a decade, to 
materialize.
    Ballistic missiles no doubt would be the preferred delivery 
platform should Iran ever acquire an atomic weapon. There is no formal 
definition of what constitutes a ``nuclear-capable missile,'' although 
the range-payload threshold established in the Missile Technology 
Control Regime (MTCR) offers a broadly accepted classification measure. 
The MTCR restricts the transfer of missiles capable of delivering a 500 
kg payload to 300 km.
    Iran's Shahab, Qiam, Ghadr, Emad, and developmental Sajjil missiles 
exceed the MTCR performance threshold. Under this definition, Iran 
possesses more than 300 nuclear-capable ballistic missiles.
    Flight tests are an essential element of any missile program. 
Flight tests are used to:

  <bullet>  Validate the design, performance and reliability of a 
        missile, under a variety of operational conditions;

  <bullet>  Verify the quality of indigenously produced missiles;

  <bullet>  Ensure reliability as the missiles as they age;

  <bullet>  Provide troop training and ensure readiness;

  <bullet>  Strengthen the credibility of a Nation's deterrence 
        capabilities;

  <bullet>  Threaten and coerce rivals.

    Because Iran views ballistic missiles as a critical instrument of 
statecraft, deterrence, and war-fighting, Tehran will very likely 
continue with missile testing. Sanctions are unlikely to deter Iran 
from testing its missiles.
    The pace of missile testing by Iran last year and this year is 
consistent with past practices. Iran did not conduct a nuclear-capable 
missile launch in 2005, 2013, or 2014, when serious nuclear 
negotiations were underway. From 2006 to 2012, when talks were going 
nowhere, Iran averaged roughly five test launches per year. Three 
flight tests were performed in 2015, and five have occurred this year.
    To place this in perspective, the U.S. and Soviet Union, on 
average, conducted more than 10 flight tests per year for each 
operational system throughout the Cold War. Given the number of systems 
deployed, each side conducted about one test a week.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Long-Range Missiles
    I have seen no evidence to suggest that Iran is actively developing 
an intermediate- or intercontinental-range ballistic missile (IRBM or 
ICBM, respectively). I cannot speak to a covert program. The need to 
flight test missiles before they are made operational provides advanced 
warning of new capabilities. Flight trials involve a dozen or more test 
launches, and historically require 3 to 5 years to complete, sometimes 
more.
    Available evidence, including the recent debut of the Emad medium-
range missile, indicates that enhancing missile accuracy supersedes 
Iran's quest for longer-range systems.
    Iran could attempt to use Sajjil technologies to produce a three-
stage missile capable of flying 3,700 km or 2,200 miles. But it is 
unlikely to be developed and actually fielded before the Sajjil-2 
missile is fully developed.
    Iran could elect to develop a ``second-generation'' intermediate-
range missile of 4,000 km to 5,000 km, or 2,500 miles to 3,100 miles, 
using solid-fuel technology. This path would provide a basis for also 
developing an ICBM. However, Iran's engineers would need to design, 
develop and test a much larger rocket motor to support IRBM and ICBM 
projects. Large motor development typically requires 2 to 3 years, and 
involves many ground tests to validate design and production, as well 
as performance and reliability. Ground testing would necessarily be 
followed by at least 3 years of flight trials. Thus, there is little 
reason to believe that the Islamic Republic could field an IRBM before 
2020. Moreover, Iran would still have to rely on imported technologies, 
production materials, components and technical assistance.
    Iran's past missile and space-launcher efforts suggest that Tehran 
would probably develop and field an IRBM before trying to develop an 
intercontinental ballistic missile capable of reaching the United 
States more than 9,000 km or 5,600 miles away. If development of an 
intermediate- and intercontinental-missile are pursued in tandem, Iran 
could conceivably field an operational ICBM in 2022, at the earliest. 
If done sequentially, Iran will struggle to achieve a viable ICBM 
capability before 2025.
    Iran could attempt a short-cut to an IRBM or ICBM capability. 
Satellite launch activity could, in principle, be used as a springboard 
to developing an IRBM or ICBM. However, no country has converted a 
satellite launcher into a long-range ballistic missile. There are sound 
reasons why such a conversion has not materialized.
    Without question, rockets designed to boost a satellite into orbit 
and long-range ballistic missiles employ many of the same technologies, 
key components, and operational features. There are, however, key 
characteristics that differentiate satellite launchers from ballistic 
missiles, apart from the payload itself. Firstly, ballistic missile 
payloads must survive the rigors of reentry into the earth's 
atmosphere. Protecting a long-range missile's payload from the extreme 
heat and structural loads experienced during reentry requires the 
development and production of special materials, as well as testing and 
validation under real conditions.
    Secondly, satellite-launch vehicles and long-range ballistic 
missiles employ distinctly different trajectories to fulfil their 
respective missions. The different trajectories call for different 
propulsion systems for optimal performance. One cannot simply swap out 
one engine for another and expect the missile to perform with high 
dependability. Multiple flight tests of the new configuration are 
needed to validate performance and reliability.
    A third, less obvious difference lies with the operational 
requirements. Before flight, satellite launchers, unlike their 
ballistic missile counterparts, are prepared over a period of many 
days, if not weeks. Components and subsystems are checked and verified 
prior to launch. The mission commander has the flexibility to wait for 
ideal weather before initiating the countdown. If an anomaly emerges 
during the countdown, engineers can delay the launch, identify and fix 
the problem, and restart the process.
    In contrast, ballistic missiles, like other military systems, must 
perform reliably under a variety of operational conditions with little 
or no warning. These operational requirements impose a more rigorous 
validation scheme, which includes an extensive flight-test program. 
Normally, only after successfully completing validation testing is a 
missile deemed to be combat ready. This latter requirement, and the 
need to ensure prelaunch survivability, explain why the Soviets and 
Americans never converted a satellite launcher into a ballistic 
missile, though the reverse process occurred frequently. China 
developed its early long-range missiles (DF-3, DF-4, and DF-5) and 
satellite launchers (CZ-2 and CZ-3) in parallel. However, running the 
developmental programs in tandem did not obviate the need to conduct a 
full set of flight trials over many years for the military missiles. 
Nor did the parallel programs shorten the development timeline 
significantly.
    Iran's Safir and Simorgh rockets are optimized to lift a satellite 
into orbit. The second stages used by the Safir and Simorgh are powered 
by low-thrust, long-action time engines, which accelerate the satellite 
along a path that parallels the earth's surface. A ballistic missile 
trajectory must climb to higher altitudes to optimize its range 
capacity. An underpowered second stage would necessarily fight 
gravitational forces over a longer time, robbing the payload of 
velocity and thus range. Iran would likely modify the Simorgh by 
replacing the second stage's propulsion system with a Scud or Nodong 
engine.
    Iran could opt to modify the Simorgh satellite-launch platform for 
use as a ballistic missile, though the transformation would not be 
simple or quick. There would still be a need to flight test the 
transformed Simorgh in a ballistic missile mode. If Iran built a 
ballistic missile using the Simorgh's first stage, and replaced the 
second stage with a Nodong, the notional missile might achieve a 
maximum range of 4,000 to 6,000 km, depending on configuration details 
and the payload. To reach the continental U.S., a powerful third stage 
would have to be developed and added to the first two stages of the 
Simorgh. The notional missile would remain poorly suited for use as a 
ballistic missile, because it would be too large and cumbersome to 
deploy on a mobile launcher. It would therefore have to be placed in a 
silo, making it an attractive target for adversaries possessing advance 
reconnaissance and strike capabilities.
    Nonetheless, Iran could elect to upgrade and modify its Simorgh. 
The Soviet Union considered an analogous upgrade in 1957, when the 
Yangel Design Bureau suggested combining the main boosters of the R-12 
and R-14 missiles to create the R-16 ICBM. The R-16 was successfully 
developed, but only after substantial redesign, including the 
development of new engines using more energetic propellants. The Soviet 
experience suggests that Iran would find it challenging and time 
consuming to build an operational ICBM derived mainly from Simorgh 
hardware. A new missile design seems more plausible.
Indigenous Capabilities
    Iran possesses the technical, project-management and industrial 
capacity to develop and field the ballistic missiles it desires. But 
development of new systems will require sustained investment, years of 
patience and a tolerance for failed projects.
    The modifications of the Shahab-2 and Shahab-3, to create the Qiam 
and Ghadr missiles, respectively, demonstrate Iran's technical prowess 
and ingenuity. North Korea has no equivalent, suggesting that Iran is 
slowly surpassing its original supplier of systems, components and 
technology. Iran has also leveraged Shahab-3 technology to develop the 
Safir and Simorgh satellite launchers. Finally, Iran has, over the 
course of three decades, mastered many key aspects of solid-propellant 
motor production.
    However, Iran is not fully self-sufficient. Available evidence 
indicates that Iran cannot fabricate reliably the Scud and Nodong 
liquid-propellant engines that power its operation missiles. This may 
change in the future, although the history of ``reverse-engineering'' 
complex equipment suggests otherwise. The Soviet Union, for example, 
could not successfully clone the German V-2 missile after the war, 
despite have access to much of the original production line, the 
original blueprints and many of the key German specialists that 
developed the V-2. Similarly, the Soviet attempt to reverse-engineer 
the American B-29 bomber resulted in a Tu-4 which did not perform like 
the original. It seems much more likely than not that if Iran wishes to 
expand its arsenal of liquid-fueled missiles, it will have to import 
additional engines from North Korea. North Korea's liquid-fueled 
engines were very likely fabricated in the Soviet Union in the 1980s 
and 1990s.
    Iran's development of the Sajjil-2 missile appears to have stalled, 
partly because it cannot indigenously produce some of the key 
ingredients used in the manufacture of solid-propellant motors. Iran 
has successfully imported key ingredients, though disruptions to the 
supply chain have forced it to use multiple providers. Relying on 
different suppliers, each of whom produces key ingredients to different 
standards, introduces many new variables to the solid-propellant 
production process, which is challenging enough under the best of 
circumstances. The challenges are amplified many fold as the size of 
the rocket motor to be produced grows. Iran's reliance on foreign 
suppliers creates opportunities for those countries that seek to slow 
the development of large missiles propelled by solid propellant.
Iran-North Korea Missile Cooperation
    North Korea supplied Iran with ballistic missiles and technology 
beginning in the mid-1980s and receding in the late 1990s. The 
relationship was highly transactional; missiles and missile 
technologies were exchanged for cash. Evidence over the past decade 
indicates that North Korea-Iran cooperation is limited in both scope 
and depth. Some testing data may have been exchanged in the early 
2000s, as Iran began efforts to modernize the design of the Nodong/
Shahab-3 to create the Ghadr missile. North Korea is not known to have 
tested an equivalent version of the Nodong, although imprecise mock-ups 
of a missiles having a nosecone geometry similar to the Ghadr's were 
shown during a military parade in Pyongyang in late 2010.
    Sharing of blueprints and other sensitive information seems 
unlikely, primarily because of security issues. Interviews with Russian 
and Ukrainian missile specialists who worked in Iran during the late-
1990s, and early-2000s reveal that Tehran heavily compartmentalizes its 
most valued weapons programs. This was done to prevent foreigners from 
understanding the scope and status of Iran's missile endeavors, its 
indigenous capabilities, and its technology import requirements. It 
seems reasonable that the same security standards and practices are 
applied to the North Koreans who may continue to assist Iranian 
efforts. The barriers erected to preserve security would also, by 
definition, impede cooperation.
    Signs of minimal cooperation are also evidenced by the missiles and 
satellite-launch vehicles developed by the two countries. North Korea's 
Taepo-dong 1 satellite launcher, which overflew Japan in 1998, was a 
three-stage system. Iran's Safir launch vehicle uses two stages. North 
Korea abandoned the Taepo-dong 1, in favor of the larger Taepo-dong 2 
(Unha) launcher, after only one (unsuccessful) flight. The Safir has 
been used at least seven times since 2008, with just over half of the 
launches resulting in success.
    Iran's Simorgh launch vehicle, like the Safir, is a two-stage 
rocket. North Korea's Unha is a three-stage system. And while it is 
true that the first stage of the Unha and Simorgh are powered by a 
cluster of four Nodong engines, the two designs are significantly 
different. South Korea recovered from the ocean two Unha first stages, 
the first from the December 2012 flight, the second from the February 
2016 launch. After analyzing the recovered debris, the South Korean 
Government concluded that in addition to the four main engines, four 
small ones were also used to steer the Unha during first-stage 
operation. Each of the steering engines received its fuel and oxidizer 
by tapping into the plumbing that feeds an adjacent main engine. This 
arrangement reduces slightly the thrust output of the main engines by 
depriving it of the propellant flow diverted to the steering engines. 
The small reduction in thrust is compensated, though not fully, by the 
thrust generated in the steering engines. The Unha configuration is a 
reasonable, low-risk design.
    Photographs of the Simorgh's first stage show that it too employs 
four steering engines for flight control. However, a separate pump--
scavenged from a Scud engine--is used to deliver fuel and oxidizer to 
the four steering engine. The Iranian design provides the Simorgh's 
first stage with an extra 13 tons of thrust when compared to the Unha's 
first stage. The different designs indicate that North Korea and Iran 
do not share blueprints for their respective satellite launchers. Given 
the more sensitive nature of ballistic missile designs, it is 
reasonably safe to conclude that the two countries do not codevelop 
military missiles.
Containing Iran's Ballistic Missile Program
    Multilateral sanctions, most notably UN Resolution 1929, likely 
played a prominent role in retarding development of the Sajjil medium-
range missile. Technical challenges and the deaths of several key 
personnel in late-2011 may also contributed to the delays. The apparent 
success of the sanctions, which disrupted the supply of critical 
ingredients used to produce solid fuels, was facilitated by the UN 
Panel of Experts on Iran. The Panel was responsible for investigating 
potential violations. The investigations, and reporting to the Panel by 
Governments interdicting proscribed shipments to Iran, raised 
international awareness of the sanctions. The Panel's work also 
identified illicit networks and pathways, which further underscored the 
international community's role in enforcing Resolution 1929.
    However, the Panel does not exist under Resolution 2231. The U.S. 
should work with the Security Council to reinstate the Panel, with a 
focus on enforcing the trade restrictions contained in Resolution 2231.
    The success of unilateral sanctions, especially those leveled 
against Iranian enterprises and individuals, is historically ambiguous. 
Iran creates new trading companies to replace those that have been 
sanctioned. As Iran renews international trade under the relief granted 
by the JCPOA, unilateral sanctions may or may not become more 
effective. It is difficult to predict.
    The Proliferation Security Initiative--and international effort to 
disrupt the flow of WMDs and related technologies--could be an 
effective tool for intercepting shipments from North Korea, Iran's 
principle, if not sole source for missile engines. Without a supply of 
additional engines from North Korea, Iran will find it difficult to 
expand its arsenal of liquid-fueled missiles. This may drive Iran to 
seek greater self-reliance, but the cost of developing and qualifying a 
production line for these engines will be high.
    In response to the growing threats posed by Iran's ballistic-
missile arsenal, the Pentagon has worked tirelessly with our Gulf 
partners, Israel and NATO to deploy regional-missile defenses for 
protection. Joint missile-defense exercises with our Gulf partners--and 
Israel--offer a tangible counter narrative to Iran's missile tests, and 
possibly deter Iranian use of missiles. Joint-exercises will also serve 
to enhance the capabilities and effectiveness of the missile-defense 
systems deployed in the region.
    Iran has said it does not need missiles with a range exceeding 
2,000 km. The U.S. should explore options that, at a minimum, would 
legally codify that range limit. Other limitations may be ripe for 
negotiation, including those that increase the transparency of Iran's 
space program.
                                 ______
                                 
               PREPARED STATEMENT OF ELIZABETH ROSENBERG
 Senior Fellow and Director, Energy, Economics, and Security Program, 
                   Center for a New American Security
                              May 24, 2016
    Chairman Shelby, Ranking Member Brown, and distinguished Members of 
the Committee, thank you for the opportunity to testify today on the 
role of sanctions under the Iran deal.
    Sanctions on Iran created the pressure necessary to compel Iran to 
agree to a deal with the international community last year. In exchange 
for economic relief, the Iranian Government agreed to curb its nuclear 
weapons capability. The effectiveness of Iran sanctions can be traced 
directly to the diligence and creativity of policymakers in Congress 
and in this Administration, as well as the previous one. Specifically, 
the leadership of U.S. lawmakers and executive branch implementation 
and enforcement officials helped to craft a coherent international 
message regarding Iran's threatening proliferation behavior, a 
multilateral coalition to isolate Iran diplomatically and financially, 
and the collective financial leverage so critical to delivering the 
Iran nuclear deal. This deal was a major step forward in proliferation 
security in the Middle East and I applaud the work of this Committee 
for your important role in facilitating effective nuclear diplomacy.
    The Iran sanctions regime was, and remains, the most comprehensive 
program of U.S. and international sanctions, commensurate with the 
grave security concerns regarding Iran's nuclear proliferation 
activities, as well as its ongoing regional destabilization, ballistic 
missile program, support for terrorism, and abuse of human rights. Many 
U.S. and international sanctions on Iran were waived on Implementation 
Day, the milestone of the nuclear deal recognizing Iran's completion of 
its major initial commitments to ship out nearly all of its enriched 
uranium, disassemble thousands of centrifuges, and submit to a much 
more comprehensive inspections regime. However, the United States 
maintains sanctions authorities relevant to Iran as part of the deal, 
as well as a wide array of sanctions on Iran outside the scope of the 
deal, including those that bar U.S. companies and citizens from doing 
business with Iran. The existing architecture of Iran sanctions remains 
very powerful and affords an enormous amount of leverage to U.S. 
policymakers to pursue Iranian security provocations and 
destabilization.
Unwinding Nuclear Sanctions Under the Iran Deal
    On Implementation Day the removal of many EU sanctions and the 
exercise of U.S. sanctions waivers and issuance of licenses permitted 
Iran to expand its oil sales and access $100 billion in frozen assets. 
\1\ Additionally, the United States, the EU, and the UN together 
removed hundreds of designated Iranian entities from sanctions lists, 
including Iranian banks that then gained access to European financial 
institutions. Iranian institutions have been able to expand their 
international ties since January, though this expansion is far from the 
tidal wave of new economic activity that many hoped for or feared. Iran 
has established new oil trading contracts in Europe \2\ and expanded 
oil deliveries to Asia. \3\ Several Iranian banks are reestablishing 
branch licenses and correspondent relationships in Europe and are 
renewing their tics with Asian counterparts. \4\ Additionally, Iran's 
charm offensive to market new deals for trade and investment, including 
in areas such as automobiles and airplanes, have met some success 
internationally. \5\
---------------------------------------------------------------------------
     \1\ ``Written Testimony of Adam J. Szubin, Acting Under Secretary 
of Treasury for Terrorism and Financial Intelligence United States 
Senate Committee on Banking, Housing, and Urban Affairs'', U.S. 
Department of the Treasury, press release, August 5, 2015, https://
www.treasury.gov/press-center/press-releases/Pages/j10144.aspx.
     \2\ ``Italy's Renzi Signs Potentially Huge Business Deals in 
Iran'', Reuters, April 12, 2016, https://www.reuters.com/article/us-
iran-italy-idUSKCN0X91I2.
     \3\ Chen Aizhu, ``Exclusive: Iran Renews Oil Contracts With China, 
Taps New Buyers'', Reuters, December 3, 2015, http://www.reuters.com/
article/us-china-iran-oil-idUSKBNOTM0CN20151203.
     \4\ Martin Arnold, ``British Regulators Help Iranian Banks Come in 
From the Cold'', Financial Times, January 31, 2016, http://www.ft.com/
intl/cms/s/0/54144ec2-c692-11e5-b3b1-7b2481276e45.html#axzz45ojdIkOv.
     \5\ Mehrnosh Khalaj and Michael Stothard, ``Peugeot Agrees Deal To 
Revive Iran Partnership'', Financial Times, February 7, 2016, http://
www.ft.com/intl/cms/s/0/71b1acd8-cdbb-11e5-831d-
09f7778e7377.html#axzz45oJdIkOv.
---------------------------------------------------------------------------
    There are various reasons why Iran will expand its links to the 
international financial system slowly, however. The cumbersome 
unraveling of nuclear sanctions restrictions at banks and companies 
around the world in order to engage in now-permitted business with Iran 
is only one factor. Remaining sanctions on Iran for its terrorist and 
ballistic missile activities are a deterrent to those who would 
contemplate business with Iran, along with prudential concerns related 
to a history of corruption, and a lack of transparency and 
maneuverability for foreign firms in Iran's financial system. 
Beneficial ownership information for Iranian legal entities is 
notoriously unavailable and confusing, and there is a lack of 
confidence in Iranian due process mechanisms for foreign entities 
conducting business there. Iranian banks also lag behind many emerging 
market peers in compliance with global tax, financial reporting, 
capital requirements, and anti-money laundering standards, a fact 
tacitly acknowledged by Iranian financial overseers. \6\ The Financial 
Action Task Force has pointed out risks associated with Iran's economy 
in grave terms, \7\ Transparency International ranks Iran 130 out of 
168 on their corruption index, \8\ the World Bank's Ease of Doing 
Business Ranking puts Iran at number 118 out of 189, \9\ and the 
International Monetary Fund has recently called attention to Iran's 
troubled banking system. \10\ These various factors represent 
tremendous impediments to foreign investment in Iran and the creation 
of new commerce for the Iranian regime and people.
---------------------------------------------------------------------------
     \6\ Barbara Slavin, ``Central Bank Governor: Iran Expects Access 
to U.S. Financial System'', Al-Monitor, April 15, 2016, http://www.al-
monitor.com/pulse/originals/2016/04/iran-expects-limited-access-us-
financial-system.html; Patrick Clawson, ``Iran Locks Itself Out of the 
International Financial System While Blaming Washington'', The 
Washington Institute, Policywatch 2600, April 5, 2016, http://
www.washingtoninstitute.org/policy-analysis/view/iran-locks-itself-out-
of-the-international-financial-system-while-blaming-w.
     \7\ ``FATF Public Statement--19 February 2016'', FATF, High-risk 
and noncooperative jurisdictions, February 19, 2016, http://www.fatf-
gafi.org/publicacions/high-riskandnon-cooperativejurisdictions/
documents/public-statement-february-2016.html.
     \8\ ``Corruption by Country/Territory: Iran'', Transparency 
International, accessed April 14, 2016, https://www.transparency.org/
country/#IRN.
     \9\ ``Ease of Doing Business Index'', World Bank, Accessed April 
14, 2016, http://data.worldbank.org/indicator/IC.BUS.EASE.XQ.
     \10\ ``Islamic Republic of Iran--2015 Article IV Consultation--
Press Release; Staff Report; and Statement by the Executive Director 
for the Islamic Republic of lran'', International Monetary Fund, IMF 
Country Report No. 15/349, December 2015, http://www.imf.org/external/
pubs/ft/scr/2015/cr15349.pdf.
---------------------------------------------------------------------------
    Beyond Iran's self-imposed financial troubles, its escalating 
regional provocations and continued aggression through proxies make the 
specter of future confrontation with its neighbors or the United States 
a real possibility. Iran has the largest, most lethal ballistic missile 
arsenal in the Middle East and has stepped up missile tests in recent 
months. \11\ It has also expanded its material support to the Houthis 
in Yemen and continues to support other proxies that destabilize the 
region, including Hezbollah. Iran's aggressive rhetoric and flagrant 
disregard for the United Nations' restrictions on ballistic missile 
activity is a red flag to potential partners, who are already wary of 
the reckless behavior of Iran's revolutionary leaders.
---------------------------------------------------------------------------
     \11\ Kambiz Foroohar, ``U.S. Frowns on New Iran Sanctions by 
Congress After Missile Test'', Bloomberg, April 13, 2016, http://
www.bloomberg.com/news/articles/2016-04-13/u-s-argues-against-more-
iranian-sanctions-after-missile-tests.
---------------------------------------------------------------------------
    For reasons of political and security risk, existing sanctions, and 
the serious financial challenges associated with attempting business 
with Iran, many global banks have made it clear that they do not plan 
on doing business with Iran. In addition, as HSBC has pointed out, the 
different rules for U.S. banks and foreign banks when it comes to 
dealing with Iran is another road block for many foreign banks that 
work to create institution-wide compliance protocols across all the 
jurisdictions in which they operate. \12\ It can be too difficult, 
risky, or impractical to have different compliance practices for U.S. 
business units by comparison to those for business units outside the 
United States, and foreign banks reasonably fear that creating 
different standards may expose them to complicated and expensive 
regulatory actions in the future if policy changes. The financial 
institutions and companies that will attempt new Iran business are 
generally moving slowly with actual contracts and deals, biding time to 
discover what market pitfalls or potential future sanctions may mean 
for their business. Furthermore, many of these banks are regional banks 
with a relatively smaller capacity to handle trade and structured 
finance, and retail services. They may also be more concentrated in 
Asia, with more limited exposure to the U.S. financial system than 
their European counterparts.
---------------------------------------------------------------------------
     \12\ Stuart Levey, ``Kerry's Peculiar Message About Iran for 
European Banks'', The Wall Street Journal, May 12, 2016, http://
www.wsj.com/articles/kerrys-peculiar-message-about-iran-for-european-
banks-1463093348.
---------------------------------------------------------------------------
Overseeing the Nuclear Deal and Addressing Non-Nuclear Concerns With 
        Iran
    The core technical work of overseeing the Iran deal falls to 
nuclear experts involved in compliance and verification activities. The 
International Atomic Energy Agency (IAEA), the lead institution on this 
effort, has so far given Iran fair marks for upholding its nuclear 
commitments under the deal. In February, it issued its first monitoring 
report following Implementation Day, raising no concerns about Iran's 
activities. \13\
---------------------------------------------------------------------------
     \13\ ``Verification and Monitoring in the Islamic Republic of Iran 
in Light of United Nations Security Council Resolution 2231 (2015)'', 
IAEA, February 26, 2016, https://www.iaea.org/sites/default/files/gov-
2016-8-derestricted.pdf.
---------------------------------------------------------------------------
    For sanctions officials, overseeing the nuclear deal involves two 
primary lines of effort. The first is education and outreach to the 
global community to clarify what new business activities are permitted 
under the nuclear deal and what remain off limits pursuant to existing 
sanctions. This educational initiative is, by necessity, ongoing, given 
the dynamic nature of sanctions and evasion techniques that designated 
entities may pursue. The U.S. Government has sent delegations around 
the world in this effort, but much more must be done to address 
confusion within the global private sector about what business is now 
allowed with Iran and the appropriate controls that must be in place to 
prevent sanctions violations in the future. \14\
---------------------------------------------------------------------------
     \14\ Ladane Nasseri, ``Executives Are Confused by Iran 
Sanctions'', Bloomberg, May 17, 2016, http://www.bloomberg.com/news/
articles/2016-05-17/iran-s-allure-tempered-by-confusion-on-sanctions-
survey-shows.
---------------------------------------------------------------------------
    The second primary effort for sanctions officials overseeing the 
nuclear deal is ensuring that sanctions authorities are primed for use, 
so that the United States and international allies are able to reimpose 
sanctions in part or in whole if Iran violates its nuclear commitments. 
Keeping authorities up to date means the reauthorization of the Iran 
Sanctions Act before it expires at the end of the year. Additionally, 
it means readying potential additional contingency measures, including 
new approaches to sanctions enforcement or possible new sanctions 
authorities, if Iran fails to uphold its commitments under the nuclear 
deal.
    Using sanctions to address non-nuclear concerns with Iran is 
distinct from oversight of the nuclear deal. Unique authorities exist 
for sanctioning Iran's support for terrorism and use of ballistic 
missiles, its involvement in narcotics trafficking and malicious 
cyberattacks, as well as its human rights abuses. The Treasury 
Department has announced scores of designations under these authorities 
over the years, including a number of designations during negotiations 
on the nuclear deal. In recent months the Obama administration 
announced sanctions on Iran for its ballistic missile procurement 
activities and tests, including new sanctions on Implementation Day. 
\15\ It also announced designations highlighting Iran's support for 
terrorism, including through designations of entities and individuals 
that support Mahan Air, in March, and Hezbollah, in January and April. 
\16\ This is important work and I urge the Administration to expand its 
sanctions implementation and enforcement in these areas. This is 
particularly important with regard to the work of exposing and 
targeting the insidious and dangerous activities of the IRGC within and 
beyond the borders of Iran, including exposing the financial activity 
and holdings of the IRGC, its agents and instrumentalities, and Iran's 
regional terrorist proxies, whenever feasible. The U.S. Government 
should, at a minimum, designate the IRGC under its terrorism 
authorities.
---------------------------------------------------------------------------
     \15\ ``Treasury Sanctions Those Involved in Ballistic Missile 
Procurement for Iran'', U.S. Department of the Treasury, press release, 
January 17, 2016, https://www.treasury.gov/press-center/press-releases/
Pages/jl0322.aspx.
     \16\ ``Treasury Sanctions Supporters of Iran's Ballistic Missile 
Program and Terrorism-Designated Mahan Air'', U.S. Department of the 
Treasury, press release, March 24, 2016; ``Treasury Sanctions Key 
Hizballah Money Laundering Network'', U.S. Department of the Treasury, 
press release, January 28, 2016, https://www.treasury.gov/press-center/
press-releases/Pages/jl0331.aspx; ``Publication of the Hizballah 
International Financing Prevention Act of 2015 Related Sanctions 
Regulations; Counter Terrorism Designations Updates; Syria Designations 
Updates'', U.S. Department of the Treasury, April 15, 2016, https://
www.treasury.gov/resource-center/sanctions/OFAC-Enforcement/Pages/
20160415.aspx.
---------------------------------------------------------------------------
    Beyond designating more targets, sanctions officials in the 
Administration should pursue non-nuclear concerns with Iran by urging 
foreign counterparts to match U.S. sanctions measures related m Iran's 
support for terrorism and use of ballistic missiles, as well as its 
human rights abuses. This includes outreach to European officials in 
the position to enhance EU sanctions lists to include more IRGC targets 
and entities involved in Iran's ballistic missile program and support 
for terrorism. As a specific example, outreach to the Europeans should 
include encouraging EC authorities to use sanctions restrictions to 
deny access to European airports for Mahan Air, given its involvement 
with Iranian support for terrorism. Expanding transatlantic unity on 
sanctions targeting Iran's continued security provocations and 
destabilizing regional role will send an important message to Iran: the 
international community, led by the United States and Europe, broadly 
condemns Iran's threatening behavior and is expanding its campaign to 
expose, interdict, and counter it through security and diplomatic 
means.
    Alongside this additional sanctions implementation and coordination 
activity, U.S. policymakers and their European counterparts should also 
specifically and publicly identify Iran's self-imposed financial 
problems. Doing so will make clear to Iran and the global community 
that Iran bears significant responsibility for improving its economic 
conditions, and that the removal of sanctions under the nuclear deal 
cannot independently deliver a windfall to Iran. The strongest and most 
credible strategy to highlight Iran's need to improve its financial 
transparency and accountability is for technical experts inside the 
U.S. Government, as well as outside at institutions such as the 
International Monetary Fund, the Financial Action Task Force, 
Transparency International and elsewhere, to point out the technical 
problems in the anti-money laundering, counterterrorist financing, and 
countercorruption domains that Iran must address. Additionally, such 
experts should be encouraged and allowed, by license if they are U.S. 
persons, to offer technical guidance to Iranian financial institutions 
to conduct this work. This will support U.S. policy interests in 
achieving greater transparency in the Iranian financial industry, and 
it will clearly demonstrate that the United States is not the roadblock 
to economic reform. It could help to reinvigorate private business in 
Iran to better challenge the insidious control of the IRGC over 
significant parts of the Iranian economy. Also, it could allow Iran to 
reap the economic benefits of the nuclear deal, thereby strengthening 
this important proliferation security accomplishment.
A Strategy for Powerful, Sustainable Sanctions on Iran
    In pursuing Iran sanctions now and in the future, U.S. policymakers 
must prioritize both the important work of isolating Iranian entities 
engaged in dangerous and illicit behavior, as well as a methodological 
approach to sanctions as a policy tool that supports sanctions' 
continued cogency and sustainability. Given that Iran sanctions 
authorities are already extraordinarily extensive and powerful, this 
means focusing on aggressively using existing authorities and avoiding 
the creation of new authorities that might sow confusion or undermine 
existing ones.
    There are three particular hazards that U.S. sanctions policy 
officials must avoid. First, policymakers must refrain from the 
reimposition of sanctions waived under the nuclear deal. Parties to the 
Iran deal agreed to refrain from reimposing sanctions waived under the 
accord. \17\ Reimposing these sanctions would be seen at best as 
undermining confidence and adherence to the deal and at worst as 
contravention and grounds for throwing out the deal, a significant 
setback to proliferation security. Second, policymakers must avoid 
creating new standards, terminology, or timelines that do not line up 
with existing statutes and create significant confusion for those 
working to implement and abide by sanctions. The establishment of 
mismatched standards or terminology may be accidental, but can be 
difficult to correct and unintentionally harmful to the private sector 
or policy interests.
---------------------------------------------------------------------------
     \17\ Joint Comprehensive Plan of Action, July 14, 2015, 13-14.
---------------------------------------------------------------------------
    The third hazard that sanctions policymakers must avoid is one of 
strategic and wide-ranging national security significance. Policymakers 
must be careful not to put in place new sanctions that so significantly 
alter international financial flows and banking activities that they 
undermine the attractiveness or primacy of the U.S. financial system 
and the dollar as a reserve currency. If powerful new sanctions cause 
companies and banks to leave U.S. jurisdiction out of a desire to avoid 
confusing, cumbersome, expensive, and threatening sanctions 
restrictions, then U.S. security and intelligence leaders will have 
less insight into illicit financial flows and will face a less 
transparent international financial system. Additionally, the reach and 
leverage of U.S. sanctions will shrink and this critical security tool 
will be dulled. Treasury Secretary Lew has warned against the overuse 
of sanctions multiple times in recent weeks, urging his colleagues and 
successors in the sanctions arena not to use them lightly as ``they can 
strain diplomatic relationships, introduce instability into the global 
economy, and impose real costs on companies here and abroad. And of 
course they carry a risk of retaliation.'' \18\ Policymakers could 
diminish the power of the U.S. financial system with zealous overuse of 
the tool.
---------------------------------------------------------------------------
     \18\ ``Remarks of Secretary Lew on the Evolution of Sanctions and 
Lessons for the Future at the Carnegie Endowment for International 
Peace'', U.S. Department of the Treasury, press release, March 30, 
2016, https://www.treasury.gov/press-center/press-releases/Pages/
jl0398.aspx; ``Treasury Secretary Jacob J. Lew Remarks at Council on 
Foreign Relations: America and the Global Economy: The Case for U.S. 
Leadership'', U.S. Department of the Treasury, press release, April 11, 
2016, https://www.treasury.gov/press-center/press-releases/Pages/
jl0415.aspx.
---------------------------------------------------------------------------
    Policy proposals to create new sanctions restrictions on Iran's use 
of the dollar in all financial transactions may be an instance of 
flirtation with the hazards outlined above. It is not the most 
effective way to draw attention to Iran's significant illicit 
activities of concern, and it adds little additional bite to U.S. 
sanctions on Iran while lending strength to the argument that the 
United States seeks to undermine the nuclear deal by making it 
difficult for Iran to reap the economic benefit of its bargain. 
Furthermore, it may undermine the strength of the U.S. financial system 
over the longer term. As background, in 2008 U.S. policymakers barred 
so-called U-Turn transactions for Iranian entities--the transfer of 
funds by a foreign bank through a U.S. financial institution to a 
second foreign bank for the benefit of an Iranian bank. Since that 
time, Iran has been able to use the U.S. dollar if a transaction does 
not touch a U.S. bank or citizen. In practice this means that Iranian 
banks or companies cannot deal in dollars for any transaction of 
significant size or for any significant number of transactions, as any 
transaction (or series of transactions) of scale must be cleared 
through a U.S. financial institution and would therefore violate the U-
Turn rule. In simplest terms, Iran is virtually barred from use of the 
U.S. financial system because of the U-Turn prohibition. In response to 
recent rumors that the Administration might be considering loosening 
this prohibition, President Obama made clear that the United States has 
no plans to do so. \19\
---------------------------------------------------------------------------
     \19\ ``Press Conference by President Obama, 4/1/2016'', The White 
House, press release, April 1, 2016, https://www.whitehouse.gov/the-
press-office/2016/04/01/press-conference-president-obama-412016.
---------------------------------------------------------------------------
    The U-Turn rule is highly consequential for global financial 
institutions. Attempts to circumvent it have proven expensive and 
caused tremendous reputational damage, as shown by some of the big bank 
sanctions violations cases of the last decade. \20\ The aggressive 
enforcement posture of U.S. financial officials in these cases has 
contributed to a tendency among foreign banks to aggressively avoid 
U.S. sanctions violations by refusing business with Iran, even when 
permissible under sanctions rules and when it could involve very small 
dollar amounts that may not need to be cleared through a U.S. financial 
institution. Banks' so called derisking behavior, which has 
accelerated, not abated, even as nuclear tensions with Iran have 
receded somewhat, underscores the inaccessibility to Iran of the U.S. 
financial system.
---------------------------------------------------------------------------
     \20\ Patricia Hurtado, ``BNP Paribas Pleads Guilty in U.S. to 
Violating Sanctions'', Bloomberg, July 9, 2014, http://
www.bloomberg.com/news/articles/2014-07-09/bnp-paribas-pleads-guilty-
in-u-s-to-violating-sanctions. 
---------------------------------------------------------------------------
    ln this context, anxiety about Iranian use of the U.S. dollar may 
be overstated in many instances and discussion of new dollar-related 
sanctions can distract from the grave and urgent need to focus more 
directly on Iran's terrorism and regional destabilization activities. 
Furthermore, such new sanctions would not serve U.S. nuclear security 
interests if they are construed as seeking to disable Iran's ability to 
use the international financial system and collapse the nuclear deal. 
Also, if new sanctions remove or restrict waiver authority for the 
President, it will make the sanctions less flexible, and less of a true 
bargaining chip for the Administration to use with Iran to coerce 
policy change from Tehran. Finally, introducing a chilling new 
restriction on dollar activity in the financial system may cause some 
global banks to shrink their footprint in U.S. jurisdiction to avoid 
exposure to threatening penalties. Over the long term this may have 
negative implications for U.S. financial system strength and the reach 
of sanctions.
The Key Leadership Role for Congress on Iran Policy
    Congress has a number of critical roles to play on Iran policy. A 
primary one is providing current and future oversight of the deal, 
ensuring that the IAEA is adequately funded to sustain its nuclear 
inspection and verification activities in Iran. Congress should fully 
support the office of the Coordinator for Iran Nuclear Implementation. 
Additionally, lawmakers should provide sanctions investigators, 
implementers, and enforcement officials at the Treasury and State 
Departments and in the intelligence community sufficient resources to 
carry out their activities related to the Iran deal as well as Iranian 
activities beyond the scope of the deal. In addition to these resource 
issues, Congress should continue to play an important role in helping 
to conceive of and prepare for additional sanctions measures related to 
Iran if it breaches the nuclear deal. This includes eventual 
reauthorization of the Iran Sanctions Act.
    Aside from sanctions measures, Congress has several other important 
responsibilities in the successful execution of an effective Iran 
policy. Through appropriations and authorizations processes it must 
ensure that the United States has adequate ballistic missile defense 
capabilities in the Middle East. It should also provide an oversight 
role to ensure that the United States makes available these 
capabilities to partners in the region and engages with them in robust 
partner capacity building and cooperation in counterterrorism 
activities and interdiction efforts to expose and halt Iran's material 
support to Hezbollah, the Assad regime, and the Houthis in Yemen. 
Congress should also expand its support to Israel, a key ally in the 
Middle East, in intelligence-sharing and military aid arenas.
Conclusion
    Iran sanctions are a powerful tool in the U.S. security arsenal and 
have delivered successful nuclear diplomacy and a historic deal. Even 
while many sanctions have recently been rolled back as part of this 
deal, the regime is still extensive and strong. Policymakers should 
continue to forcefully implement sanctions on Iran to address its 
destabilizing regional role and support for terrorism. But they must 
avoid undermining the availability of sanctions by diminishing the 
strength and reach of the U.S. financial system. As a tool of first 
resort, sanctions are an essential part of the U.S. security 
infrastructure, and policymakers must prioritize a sustainable approach 
to ensure the cogency and effectiveness of sanctions as a central part 
of U.S. policy toward Iran in the future.
       RESPONSES TO WRITTEN QUESTIONS OF SENATOR HEITKAMP
                    FROM ELIZABETH ROSENBERG

Q.1. What steps, if any, should Congress take to ensure the 
United States maintains sufficient authority to pressure Iran 
in non-nuclear areas?

A.1. The array of authorities available to U.S. implementers 
and enforcers of sanctions covers a wide range of Iran's 
illicit non-nuclear activity of concern, including support for 
terrorism, regional destabilization, human rights abuse, 
evasion of sanctions, and others. Additionally, statutory 
authorities, primarily including IEEPA, are available to 
enforcement officials to quickly and creatively target 
potential new Iranian activities of concern in the non-nuclear 
space. It is not necessary for Congress to create additional 
authorities to target illicit Iranian activity of concern given 
the broad scope of these combined current authorities. However, 
it is important and appropriate for Congress to closely monitor 
Iran's malign activity to ascertain if and when a previously 
unforeseen need may arise to develop additional sanctions 
authorities to pressure Iran in the non-nuclear sphere.

Q.2. What risks would the United States encounter if the Iran 
Sanctions Act is not reauthorized by the end of the year?

A.2. A number of important sanctions authorities that have been 
used to target Iran are encompassed in the Iran Sanctions Act, 
including many that were waived pursuant to the JCPOA on 
Implementation Day in January. Reauthorizing the Iran Sanctions 
Act before its expiration at the end of 2016 may be useful to 
keep the sanctions authorities contained in this statute close 
at hand in case Iran violates its commitments under the nuclear 
deal and international leaders decide to reimpose sanctions. 
However, it is not necessary to reauthorize the Iran Sanctions 
Act in order to have access to all the same sanctions targeting 
capabilities. The IEEPA statute includes sufficient authority 
for Administration policymakers to move quickly to pressure 
Iran with sanctions even without the Iran Sanctions Act 
remaining part of U.S. law. Furthermore, to the extent that 
reauthorizing the Iran Sanctions Act may create ill will and 
negative political provocation with Iran and among P5+1 
partners, it may undermine the nuclear deal. This in turn can 
be counterproductive to the important goal of advancing 
proliferation security though the nuclear deal.


</pre></body></html>
